Office of
Inspector
General
Semiannual
Report to
the Congress
October I, 1988 to
March 31, 1989



May 1, 1989
FOREWORD
This report, submitted pursuant to the Inspector Gen-
eral Act of 1978, summarizes Office of Inspector General
(OIG) activity over the 6-month period ending March 31,
1989. It is my seventh Report to the Congress.
I am very pleased to report that, this period, dollar sav-
ings accruing to the Government from OIG work reached
a record level. Such savings-in terms of management
commitments to more efficiently use resources and to re-
cover funds, voluntary recoveries, court-ordered recov-
eries, and investigative recoveries- totaled
$134,625,913. This represented a return of $10.73 for
every dollar budgeted for OIG operations during the
6-month period.
Solid support from the Congress, the Office of Manage-
ment and Budget, and GSA management has enabled us
to expand our coverage of GSA programs and operations,
especially through increased use of computers in both
the audit and investigative fields. I am most apprecia-
tive of this continued support.




WILLIAM R. BARTON
Inspector General

April 30, 1989
INTRODUCTION AND OVERVIEW

A.. Introduction                                              response to significant OIG audits and investigations,
                                                              the Department of Justice:
This report, submitted pursuant to the Inspector Gen-           •   Reached a $2,950,000 civil fraud settlement with a
eral Act of 1978, chronicles the activities of the General          laboratory equipment and imaging analysis system
Services Administration (GSA) Office of Inspector Gen-              supplier.
eral (OIG) between October I, 1988 and March 31, 1989.
It is the twenty-first Report to the Congress since the ap-     •   Entered a $605,000 civil judgment against a Fed-
pointment of GSA's first Inspector General.                         eral donee who converted surplus Federal property
                                                                    to his personal use.
                                                                •   Successfully prosecuted a former Federal official for
B. Overview                                                         mail fraud.
                                                                •   Reached a $250,000 civil settlement agreement
The following paragraphs provide an overview of OIG au-             with a laboratory equipment supply firm.
dit and investigative coverage of the Agency, as well as a
summary of OIG accomplishments. In addition, this sec-        Also, an internal review advised management that a pro-
tion highlights significant OlG prevention activities.        posed contract modification could result in the Govern-
                                                              ment's paying an additional $3 million for transportation
                                                              audit services.
1. Audit and Investigative Coverage of GSA                    Detailed information on these and other activities is pre-
   Programs                                                   sented in Section III.

Audit and investigative coverage of GSA programs iden-
tified a number of opportunities for more efficient and ef-
fective Agency operations. Overall, this report reflects a
strong commitment on the part of GSA management to
                                                              Information Resources Management Service
make those improvements.
                                                              The OIG's coverage of the Information Resources Man-
                                                              agement Service (IRMS) continued to focus on its con-
                                                              tracting function, particularly the multiple award
Public Buildings Service                                      schedule program. Actions by IRMS on noteworthy au-
                                                              dits and investigations resulted in:
This period, 50 percent of the OIG audit reports issued
addressed Public Buildings Service (PBS) programs.              •   A $17.4 million avoidance on a procurement of au-
These audits advised PBS managers of:                               tomated data processing equipment and software.

  •   The need to assess management actions that led to         •   A $354,729 administrative settlement agreement
      the termination of a major system development                 with an IRMS ADP equipment contractor.
      project prior to its completion.                        Detailed information on these and other activities is pre-
  •   Opportunities to improve monitoring practices           sented in Section IV.
      over PCB r.emoval and disposal.
  •   The need to recover rent payments from tenant
      agencies who occupied space rent-free.
                                                              Other GSA Coverage
  •   Potential cost avoidances of $3.5 million on two
      contractor claims for damages and $1.5 million on a     The OIG issued 32 internal reviews evaluating organi-
      lease escalation proposal.                              zations such as the Office of Administration, the Federal
In addition, an OIG investigation resulted in the convic-     Property Resources Service, and the Office of the Comp-
tion of a prospective GSA contractor for bribery of a GSA     troller. These reviews addressed such diverse areas as real
employee.                                                     property disposal, printing operations, payment proce-
                                                              dures, and imprest funds.
Detailed information on these and other activities is pre-
sented in Section II.                                         One significant review advised management of the need
                                                              to enhance monitoring procedures over contracts con-
                                                              taining an excess profits clause. In addition, 13 imprest
                                                              fund reviews advised management of the need to improve
Federal Supply Service                                        internal controls and physical safeguards.
OIG coverage of the Federal Supply Service (FSS) primar-      Detailed information on these and other activities is pre-
ily focused on multiple award schedule contracting. In        sented in Section V.

                                                                                                                        i
2. Overall OIG Accomplishments                                    •   128 legislative initiatives and 100 regulations and
                                                                      directives reviewed.
OIG accomplishments this period included:                       Management commitments to more efficiently use re-
     •   473 audit reports;                                     sources, management commitments to recover funds,
                                                                voluntary recoveries, court-ordered recoveries, and inves-
     •   $131,973,741 in recommendations for more efficient     tigative recoveries totaled $134,625,913 during the first
         use of resources and in recovery recommendations;      half of FY 1989. This represented a retum of $10.73 for
     •   $127,855,618 in management commitments to more         every $1 budgeted to OIG operations during the 6-month
         efficiently use resources;                             period.
     •   $6,770,295 in management commitments to re-            Detailed information on these and other activities is pre-
         cover funds, voluntary recoveries, and court-or-       sented in Sections VI and VII.
         dered and investigative recoveries;
     •   199 investigative cases opened and 196 closed;
                                                                3. Prevention Activities
     •   53 case referrals accepted for criminal prosecution
         and 10 case referrals accepted for civil litigation;   As detailed in Section VIII, the OIG's program to prevent
                                                                fraud, waste, and mismanagement encompasses a wide
     •   21 indictments/informations on criminal referrals;
                                                                variety of activities.
     •   20 successful criminal prosecutions;
                                                                Highlights of our efforts during the period included:
     •   4 settlements/judgments and 3 civil fraud
         complaints;                                              •   Completion of 65 preaward advisory reviews of
                                                                      leases involving annual rentals in excess of
     •   18 contractor suspensions and 34 contractor                  $200,000.
         debarments;
                                                                  •   Integrity Awareness Briefings for 1,802 GSA
     •   16 reprimands, 8 suspensions, and 2 terminations             employees.
         of GSA employees;
                                                                  •   Receipt of 144 Hotline calls/letters and referral of
     •   24 Inspector General subpoenas; and                          101 of these complaints for further action.




ii
TABLE OF CONTENTS

                                                                     Page                                                                     Page
INTRODUCTION AND OVERVIEW ................ .                                SECTION VI-STATISTICAL SUMMARY OF
                                                                            OIG ACCOMPLISHMENTS ................................                18
REPORTING REQUIREMENTS ........................                        iv
                                                                              A. Ole Accomplishments................................            18
SECTION I-ORGANIZATION, STAFFING,                                             B. Summary Statistics.....................................        19
AND BUDGET ....................................................        1
                                                                            SECTION VII-REVIEW OF LEGISLATION
  A. Organization ...............................................      1
                                                                            AND REGULATIONS .........................................           26
  B. Office Locations..........................................         1
                                                                              A. Legislation/Regulations Reviewed..............                 26
  C. Staffing and Budget ... ............ .... ........... .......      1
                                                                              B. Significant Comments................................           26
SECTION II-PUBLIC BUILDINGS SERVICE..                                  2
                                                                            SECTION VIII-OTHER OIG ACTIVITIES .....                             28
  A. Overview of ole Activity...........................               2
                                                                              A. ole Prevention Program................... ..........           28
 B. Significant Audits and Investigations. ........                    2
                                                                              B. Projects Sponsored by the PCIE ..................              29
  C. Significant Preaward Audits .......................               4
  D. Statistical Highlights..................................          5
  E. Significant Audits From Prior Reports .......                     5
SECTION III - FEDERAL SUPPLY SERVICE.....                              8
  A. Overview of ole Activity...........................               8    APPENDICES
  B. Significant Audits and Investigations.........                    8    APPENDIX I-AUDIT REPORT REGISTER .....                             32
  C. Significant Preaward Audits ......... ..............             10
  D. Statistical Highlights..................................         11    APPENDIX II-DELINQUENT DEBTS.............                           51
  E. Significant Audits From Prior Reports .......                    11
SECTION IV-INFORMATION RESOURCES
MANAGEMENT SERVICE .................................                  12
  A. Overview of Ole Activity...........................              12    LIST OF TABLES
  B. Significant Audits and Investigations .........                  12
  C. Significant Preaward Audits .......................              13    1.   Summary of ole Audits.................................        19
  D. Statistical Highlights..................................         13    2.   Resolution of ole Audits ...............................      20
  E. Significant Audits From Prior Reports .......                    14    3.   Resolution Decisions on ole Audits .............              21
                                                                            4.   Summary of Contract Audit Settlements.......                  22
SECTION V-OTHER GSA COVERAGE ..........                               15    5.   Investigative Workload....................................    23
  A. Overview of ole Activity...........................              15    6.   Distribution of Cases Opened This Period ....                 23
  B. Significant Audits .......................................       15    7.   Summary of ole Subject Referrals ................             24
  C. Statistical Highlights..................................         16    8.   Summary of Criminal and Civil Actions.......                  25
  D. Significant Audits From Prior Reports .......                    16    9.   Criminal and Civil Recoveries .......................         25




                                                                                                                                                iii
REPORTING REQUIREMENTS
The table below cross-references the reporting require-                               No. 96-829 relative to the 1980 Supplemental Appropria-
ments prescribed by the Inspector General Act of 1978 to                              tions and Rescission Bill is also cross-referenced to the
the specific pages where they are addressed. The infor-                               appropriate page of the report.
mation requested by the Congress in Senate Report



                                                          Source                                                                       Page

     Inspector General Act
     1. Section 4(a)(2)-Review of Legislation and Regulations .................................... .                                     26
     2. Section 5(a)(1 )-Significant Problems, Abuses, and Deficiencies ...................... .                                    2,8,12,15
     3. Section 5(a)(2)-Recommendations With Respect to Significant Problems,
          Abuses, and Deficiencies ................................................................................ ..               2,8,12,15
     4. Section 5(a)(3)-Prior Recommendations Not Yet Implemented ........................ .                                        5, 11,14,16
     5. Section 5(a)(4)-Matters Referred to Prosecutive Authorities ............................. .                                      23
     6. Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information Was
          Refused .............................................................................................................   None This Period
     7. Section 5(a)(6)-List of Audit Reports ...................................................................                        32
     Senate Report No. 96-829
     1. Resolution of Audits ...............................................................................................             20
     2. Delinquent Debts ...................................................................................................             51




iv
SECTION I -ORGANIZATION, STAFFING1
ANDBUDGET

Pursuant to the Inspector General Act of 1978, an Office          also manage the civil referral system, formulate
of Inspector General (019) was established within the             OIG comments on existing and proposed legisla-
General Services Administration (GSA) on October 1,               tion, and assist in litigation.
1978. As currently configured, the OIG consists of four
offices that function cooperatively to perform the mis-       •   The Office of Administration, a centralized unit
sions legislated by the Congress.                                 that oversees the development of OIG policies and
                                                                  strategic plans, formulates OIG comments on pro-
                                                                  posed regulations and GSA policy issuances, pro-
                                                                  vides data systems support, and handles budgetary,
A. Organization                                                   administrative, and personnel matters.

The OIG utilizes a functional organizational structure to
provide nationwide coverage of GSA programs and activ-
ities. It consists of:
                                                            B. Office Locations
  •   The Office of Audits, a multidisciplinary unit        The OIG is headquartered in Washington, DC, at GSA's
      staffed with financial and technical experts who      Central Office building. Field audit and investigations o~­
      provide comprehensive coverage of GSA operations      fices are maintained in the following cities: Boston, New
      (internal or management audits) as well as GSA        York, Philadelphia, Atlanta, Chicago, Kansas City, Fort
      contractors (external or contract audits). Head-      Worth, San Francisco, and Washington, DC. In addition,
      quarters directs and coordinates the audit pro-       the Office of Audits has a resident office in Auburn,
      gram, which is performed by the thirteen field        Washington. The Office of Investigations has resident of-
      audit offices and one resident office.                fices in Auburn, Cleveland, and Los Angeles.
  •   The Office of Investigations, an investigative unit
      that manages a nationwide program to prevent and
      detect illegal and/or improper activities involving
      GSA programs, personnel, and operations. Opera-
                                                            c.    Staffing and Budget
      tions officers at headquarters coordinate and over-   The OIG's approved Fiscal Year (FY) 1989 budget is
      see the inves tiga ti ve ac ti vi ty of nine field    approximately $25 million. Some $12.6 million was
      investigations offices and three resident offices.    available for obligation during the first half of FY 1989.
  •   The Office of Counsel to the Inspector General, an    The OIG started FY 1989 with a total on-board strength
      in-house legal staff that provides opinions and ad-   of 415 full-time employees. At the end of the semiannual
      vice on matters under OIG review. These attorneys     period, the OIG's full-time staff totaled 423.




                                                                                                                      1
SECTION II - PUBLIC BUILDINGS SERVICE

The Public Buildings Service (PBS) manages much of the         link together PBS components in a distributed process-
Federal Government's real estate assets nationwide. ,ts        ing environment, and implement state-of-the-art office
responsibilities range from constructing, purchasing,          automation throughout PBS. The concept for STRIDE
and leasing space for Government use to maintaining            was developed in 1983 and work on the project progressed
and protecting that space. In the first half of FY 1989, the   until July 1988 when development of the system was
total available funding authority of the Federal Buildings     halted. Costs associated with the STRIDE project for the
Fund was almost $2.6 billion. During the same period,          fivt; year period totaled over $121 million. The Agency is
PBS obligated almost $1.5 billion of these funds.              currently assessing project components to determine
                                                               their usefulness in meeting program needs.
                                                               This period, at the request of the Acting Administrator,
A. Overview of OIG Activity                                    the OlG completed an evaluation of the STRIDE project.
                                                               Our review examined the reasons for project delays and
This period, almost 65 percent of the internal audit re-       spiraling costs, and assessed the adequacy of contractor
ports issued by the OIG addressed PBS programs and ac-         support. The OIG concluded that successful implemen-
tivities. We presented findings relative to system             tation of this project was virtually impossible from its
development, leasing issues, fire and safety concerns, re-     concept given that a logical progressive approach to the
pair and alteration projects, building construction, main-     development of STRIDE was not utilized, quality con-
tenance contracts, and buildings management. Some of           trols were not in place, progress reports to management
the more significant reviews assisted PBS managers in          were inaccurate, and project oversight was ineffective.
taking action relative to:                                     Specific problems identified within these four areas are
    .. Preventing recurrence of the problems that led to       as follows:
       termination of a major system development project         .. System Development. A detailed design, essential
       prior to its completion.                                     for successful completion of a system development
    ..   Improving monitoring of the removal of PCB                 project, was never completed; STRIDE require-
         contaminants.                                              ments were constantly changing; and the PBS man-
                                                                    agement team did not effectively coordinate with
    .. Backcharging tenant agencies for space occupied              the support contractors.
       rent-free.
                                                                 .. Quality Controls. The PBS Project Manager did not
The OIG also issued 123 contract audit reports relative             establish a required in-house quality assurance re-
to PBS programs, many evaluating construction claims,               view team; the required design proposal review
change orders, alteration projects, proposals for architect         was not completed; and independent quality con-
and engineering services, and lease escalation proposals.           trol reviews were not performed.
In total, these reports recommended cost avoidances and
cost recoveries of $26.5 million.                                ..   Progress Reports. STRIDE progress reports were
                                                                      unrealistic, werebased on the personal judgment of
OIG investigators completed 81 cases involving PBS                    the project team, omitted known problems, and in-
programs, operations, or employees. Of these cases,                   cluded incomplete assessments.
43 percent involved allegations of white collar crimes.
Notably, a joint OlG and U.S. Attorney's Office investi-         ..   Project Oversight. The Information Resources
gation resulted in the bribery conviction of a prospective            Management Service (IRMS), which is responsible
GSA contractor. The contractor offered money to a GSA                 for tracking the modernization of GSA information
contracting official in order to obtain a contract.                   systems, granted Delegations of Procurement Au-
                                                                      thority to PBS without establishing formal mech-
                                                                      anisms for addressing noncompliance wi th
B. Significant Audits and                                             established procedures, and did not aggressively
                                                                      oversee the project.
   Investigations
This section summarizes significant internal audits and
investigations dealing with PBS. Significant preaward          Although the STRIDE project has been terminated, the
contract audits are presented in Section C.                    issues raised during the review continue to be relevant
                                                               since they would affect future system development proj-
                                                               ects. Accordingly, the March 24, 1989 audit report rec-
                                                               ommended that the Acting Administrator:
System Development Project
                                                                 .. Assess the management actions of the organiza-
The Systematically Tiered Regionally Integrated Data                tional components and individuals responsible for
Environment (STRIDE) system project was initiated to:               the STRIDE project for the purpose of preventing
provide a replacement for the PBS Information System,               similar occurrences in the future.

2
 •      Instruct the Commissioner, Public Buildings Ser-         regional personnel following up with contractors to ob-
        vice, to take action to closely coordinate the PBS in-   tain late and missing documentation. Although the con-
        formation system replacement strategies and its          tract for PCB removal at a Federal building requires the
        management information needs with IRMS; re-              contractor to provide Certificates of Destruction (CDs)
        quire the Office of Public Buildings Service Infor-      within 90 days of removal, CDs were not on file for 27 of
        mation Systems to comply with established ADP            the 55 transformers removed from the building. Current
        requirements; and assure that on future projects         and complete documentation is necessary to ensure
        independent reviews and quality assurance results        compliance with contract terms and Federal regulations.
        are reported to officials above the immediate proj-
        ect management level.                                    In our October 12, 1988 report, we recommended that the
                                                                 Assistant Regional Administrator, Public Buildings
  II)   Instruct the Commissioner, Information Resources         Service:
        Management Service, to take action to revise the
        Delegation of Procurement Authority (DPA) policy           •     Direct PBS inspectors to monitor and document
        and procedures to ensure that offices designated to              safety procedures used during the PCB removal
        have full time ADP staffs have technically quali-                process to ensure compliance with prescribed
        fied systems development expertise for proposed                  safety regulations.
        projects; tie the DPA into the ADP life cycle phases       II)   Implement a systematic method of follow-up to ob-
        as opposed to being issued for the entire project; re-           tain late and missing documents relative to the
        quire that reviews of necessary life cycle phase doc-            PCB removal and disposal process.
        uments are completed and approved as a
        prerequisite for continuing authorized procure-          The Regional Administrator provided responsive action
        ment authority; and formalize independent reviews        plans for implementing the report recommendations.
        that monitor compliance with established require-        Resolution was achieved on January 27, 1989.
        ments and resolution of recommendations that
        reach beyond the immediate project management
        level.
Management concurred with the recommendations in
                                                                 Bribery Conviction
the draft report. We are awaiting action plans for imple-
                                                                 On February 9, 1989, a prospective GSA contractor was
mentation of the recommendations.
                                                                 sentenced in U.S. District Cowt after being convicted of
                                                                 offering a bribe to a Federal official. The contractor was
                                                                 sentenced to 3 months confinement in a correctional in-
Improving PCB Monitoring                                         stitution with a work release program, placed on 3 years
                                                                 probation, and fined $2,000.
As part of the OIG's ongoing assessment of GSA's pro-            The sentencing resulted from a joint U.S. Attorney's
gram to repair/replace electrical transformers containing        Office and GSA OIG investigation initiated after a
polychlorinated biphenyls (PCBs), we examined a GSA              GSA contracting officer alleged that the contractor of-
Region's monitoring of the removal and disposal of PCBs.         fered her a bribe. In return, the contracting officer was to
PCBs, which are toxic, non-biodegradable, and carcino-           award a contract to the firm. OIG special agents moni-
genic, pose a significant hazard to both human health            tored a meeting during which the contractor offered
and the environment.                                             money to the contracting officer, who was cooperating
Our review concluded that the Region needs to improve            with the investigation.
monitoring practices over the PCB removal and disposal
process in order to prevent harm to persons and the en-
vironment as well as to mitigate the Government's po-
tentialliabilities for PCB cleanup. We found that regional       Vacant Space Management
PBS inspectors do not normally monitor the safety pro-
cedures used during the removal process to ensure con-           An OIG review of the regional management of vacant
tractor compliance with required safety precautions.             space in GSA controlled buildings disclosed that the
During the removal of PCB fluid from a contaminated              Building Listing, a computer generated report that lists
transformer in a Federal building, the auditors observed         the amount and type of space assigned to tenant agencies,
that subcontractor employees did not properly use protec-        was not in agreement with the actual status of the space
tive clothing and equipment, and did not adequately pro-         in the buildings. As a result, agencies occupied space
tect the building through the use of plastic sheeting            listed as vacant without paying rent for this space, and
under pumping hoses, wrapping of hose joints, or plac-           GSA leased additional space at the request of agencies
ing of signs/barricades to prevent building occupants            without being aware that vacant space, already under
from contact with PCBs. In addition, subcontractor em-           lease, was available for possible backfilling.
ployees did not clean up the contamination caused by a
                                                                 We found, for example, that agencies in several buildings
PCB fluid leak, nor was a required air contamination test
                                                                 were occupying over 100,000 square feet of leased space,
performed.
                                                                 with an annual rental value of almost $1.3 million. How-
The review also found that files relating to the removal         ever, since this space was listed as vacant in the Building
and disposal of PCBs are not current or complete, nor are        Listing, GSA was not charging the tenant agencies for its

                                                                                                                           3
use. Thus, money needed by GSA to operate the build-              •   Develop a checklist for reviewing lease digests and
ings was not being received.                                          issue instructions to assure that new or amended
                                                                      data elements are verified against the actual lease
We also found that vacant space, available for use, was not           contract.
accurately listed on the Building Listing. Since the record
did not reflect the availability of this space, GSA was           •   Periodically verify that all current lease digests in
leasing additional space even though the vacant space                 the region conform to lease contract provisions.
might have fit the needs of an agency requesting addi-
tional space. Further, the region classified over 395,000       The Regional Administrator provided responsive action
                                                                plans for implementing the report recommendations.
square feet of space as being committed to agencies al-
                                                                Resolution was achieved on March IS, 1989.
though: there was no documented request or basis for
such a commitment, the commitment exceeded the
amount of space requested, or changing circumstances
had eliminated the reason for making a commitment.              c.    Significant Preaward Audits
Our March 16, 1989 report directed seven recommenda-            The OIG's preaward audit program provides information
tions to the Assistant Regional Administrator, Public           to contracting officers for use in negotiating contracts.
Buildings Service, to correct identified deficiencies.          The pre-decisional, advisory nature of preaward audits
These included recommendations that the Real Estate             distinguishes them from other audits.
Division:
    •   Backcharge tenant agencies for space they occupied      $1.9 Million Recommended For Avoidance
        rent-free and, in the future, bill these agencies for
        space actually occupied.                                The OIG audited a claim for increased costs related to an
    •   Correct assignment records and reconcile changes        addition to a Federal building. The contractor alleged that
        in space assignments with the Building Listing.         differing site conditions resulted in increased costs of
                                                                $2,816,861 for excavation work.
    •   Comply with established procedures for commit-
        ting space to agencies.                                 The February I, 1989 audit report advised the contracting
                                                                officer that costs contained in the claim were overstated,
The Regional Administrator agreed with the recommen-            unallowable, or unsupported. We questioned claimed
dations in the draft report. We are awaiting action plans       costs primarily in the following categories: direct labor,
for implementation.                                             materials, extended performance, cost escalation, over-
                                                                head, and profit. Based on these findings, along with GSA
                                                                technical evaluations, the auditors recommended a re-
Erroneous Lease Data Base                                       duction of $1,869,623 in the claimed amount.
This period, the OIG completed a regional review of the         Negotiations with the contractor are currently underway.
rent payment system for lease contracts. The region has a
lease inventory of 347 contracts, covering 30.5 million
square feet of leased space, with annual rental payments
                                                                $1.6 Million Recommended For Avoidance
of $363 million.
                                                                At the request of a Regional Administrator, the OIG au-
The review found that, while the rent payment system            dited a claim for alleged damages due to Government-
correctly processed routine as well as special payment          caused delays on the construction of a Federal building.
requirements, the Public Buildings Service Information          The contractor alleged that change orders and other Gov-
System (PBS/IS) lease data base contained errors. Data          ernment actions extended the contract work period by
elements in several of the lease digests, which provide         500 days, resulting in increased costs of $1,847, 481.
controls over payment and other lease terms entered into
                                                                Our February 10, 1989 audit report advised the contract-
the PBS/IS data base, did not accurately reflect actual
                                                                ing officer that costs contained in the claim were either
terms. The most serious errors involved lease digests that
                                                                overstated or unallowable. The report recommended an
did not reflect negotiated renewal options with a poten-
                                                                adjustment of $1,639,320 to the claimed amount. Most of
tial value estimated at $16.5 million. Without this infor-
                                                                the adjustment was in the following categories: labor, la-
mation, the PBS/IS system would not have provided
                                                                bor and material escalation, interest, overhead, and
advance notice of the upcoming renewal dates and, as a
                                                                profit.
consequence, GSA might have forfeited the option rights.
In addition, five lease digests did not contain references      Negotiations with the contractor are currently underway.
to the termination rights in the corresponding leases.
These omissions could delay action to remove unneces-
sary space from the lease inventory and cancel payments         $1.5 Million of Proposed Rent Increase
for vacant space.                                               Questioned
Our December 27, 1988 audit report recommended that
the Regional Administrator:                                     An OIG audit of a $8.7 million lease escalation proposal
                                                                determined that the proposed escalation did not fully
    •   Correct the lease digests for the lease contracts       comply with the terms of the lease. The November 4,
        identified in the report.                               1988 audit report advised the contracting officer that the

4
proposal included operating costs not subject to escala-
tion. We further advised that some of the lessor's pro-
                                                                                                          .... " ' _ _ .!II.   Highlights
posed costs for escalation were not included in the base
year costs. Based on these findings, the auditors recom-
mended adjustments totaling $1.5 million.
                                                                                   The following table compares OIG activity and accom-
We are awaiting the contracting officer's position on the                          plishments within PBS to the overall GSA totals for the
questioned costs.                                                                  period.


                                                                                                                               PBS     All
     Audit Reports Issued ................................................................................ .         234                   469
     Recommended Cost Avoidance ............................................................... .                $30,359,148          $113,514,487
     Recommended Cost Recovery ................................................................ .                 $3,236,265           $12,876,212
     Management Commitments to Avoid Costs ............................................. .                       $24,018,174          $127,855,618
     Management Commitments to Recover Funds ....................................... ..                              $92,064            $4,276,770
     Percentage of Recommended Cost
       Avoidance Agreed to by Management ................................................. .                                   63            75
     Percentage of Recommended Cost
       Recovery Agreed to by Management. .................................................. .                                  344           137
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ........... ..                                                  2             2
     Implementation Reviews Finding Unimplemented Recommendations .... .                                                         4             5
     New Investigative Cases .......................................................................... .                       63           199
     Criminal Referrals (Subjects) .................................................................. ..                        73           123
     Civil Referrals (Subjects) .......................................................................... .                     4            17
     Administrative Referrals (Subjects) ......................................................... ..                           23            72
     Suspension/Debarment Referrals (Subjects) .......................................... ..                                    48            96
     Indictments/Informations/Complaints ....................................................... .                              10            24
     Successful Criminal Prosecutions ............................................................ .                             6            20
     Civil Settlements/Judgments .................................................................... .                                        4



E. Significant Audits From                                                         report has not been resolved because it pertains to an on-
                                                                                   going OIG investigation. As such, the report has been re-
                                                                                   moved from GSA's resolution process.
   Prior Reports
Under GSA's audit resolution system, the OIGis respon-                             Elevator Maintenance
sible for ensuring resolution of audit recommendations.
The Audit Resolution and Internal Controls Division,                               Period First Reported: October 1, 1987 to March 31, 1988
Office of Administration, is responsible for ensuring im-
plementation of resolved audit recommendations. That                               This OIG review determined that an elevator mainte-
office furnished the following status information.                                 nance contractor had failed to provide contractually re-
                                                                                   quired services at a Federal facility, resulting in GSA
Eleven audits highlighted in prior Reports to the Con-                             making overpayments to the contractor. The report has
gress have not been fully implemented. Two reports are                             not been resolved because, until very recently, it per-
unresolved; one report is not being implemented in ac-                             tained to an ongoing OIG investigation and therefore had
cordance with currently established milestones; and the                            been removed from the resolution process.
remaining eight reports are being implemented in accor-
dance with currently established milestones.
                                                                                   2. Significant Audits Not Being
1. Unresolved Significant Audits                                                      Implemented According to Established
                                                                                      Milestones

Rental Overpayments                                                                Energy Conservation Practices in Leased
                                                                                   Buildings
Period First Reported: October 1, 1987 to March 31, 1988
                                                                                   Period First Reported: October 1, 1987 to March 31, 1988
This OIG review found that a lessor had proposed, and
the contracting officer erroneously accepted, unallowable                          This OIG multiregional evaluation advised management
costs for escalation when computing a rent increase. The                           of energy practices in violation of lease terms. The

                                                                                                                                                     5
report contained two recommendations; one has been          Energy Conservation in Leased Space
implemented.
The remaining recommendation requires the establish-     Period First Reported: April 1, 1986 to September 30,1986
ment of a program to monitor and manage utility usage    This review of energy usage in leased buildings advised
in leased space and review those leases with excessive   GSA that, while notable progress had been made in iden-
usage to determine if reductions are possible. Implemen- tifying and monitoring energy usage problems, additional
tation was scheduled for March 1989. As of March 31,     opportunities for energy conservation still existed. The
1989, the Audit Resolution and Intemal Controls Divi-    OIG made ten recommendations; eight have been
sion had not received documentation that the recom- . implemented.
mendations had been implemented.
                                                         The two remaining recommendations involve the instal-
                                                         lation of sensor devices and the performance of energy
                                                         conservation building studies. They are scheduled to be
3. Significant Audits Being Implemented                  fully implemented by January 1990 and April 1990,
    According to Established Milestones                  respectively.


                                                            Administration of Cleaning Contracts
Excessive Lease Payments
                                                            Period First Reported: October 1, 1985 to March 31, 1986
Period First Reported: April1, 1988 to September 30, 1988
                                                            This OIG review concluded that regional controls over
This review of escalation payments processed for a lease    cleaning contracts required strengthening. We made
found that the lessor had received $212,998 in excess es-   seven recommendations to correct the identified defi-
calation payments. The report contained one recommen-       ciencies; six have been implemented.
dation; it has not yet been implemented.
                                                            The remaining recommendation involves the collection
The recommendation, which requires deductions from          of overpayments to a GSA contractor. On July 14, 1986, a
rental payments until the overpayment amount is             demand letter was written and an account receivable was
reached, is scheduled for completion in July 1990.          established in the amount of $137,082. The contractor has
                                                            since filed an appeal with the GSA Board of Contract
                                                            Appeals.
Payments For Overtime Services in Leased
Space                                                       Excessive 'Thx Escalation Payments
Period First Reported: October 1, 1987 to March 31, 1988
                                                            Period First Reported: April 1, 1985 to September 30, 1985
This consolidated report advised GSA that, while most
                                                            This June 4, 1985 review disclosed that the tax escalation
payments for building overtime services were handled ef-
                                                            clause contained in GSA leases, coupled with some local
fectively, internal controls required strengthening. Ac-
                                                            taxing practices, resulted in exorbitant Government tax
cordingly, the OIG made 17 recommendations; 16 have
                                                            escalation payments. The report contained eight recom-
been implemented.
                                                            mendations; six have been implemented.
The remaining recommendation involves recovering
                                                            The two remaining recommendations generally involve
the cost of overtime services provided tenant agencies
                                                            specific actions to reduce GSA's liability for excessive
at a border station. Implementation is scheduled for
                                                            tax escalation payments. The recommendations were
April 1989.                                                 originally scheduled for completion in November 1985
                                                            and March 1986, respectively. Implementation dates for
                                                            both recommendations were renegotiated to June 1988
Constmction Contract Administration                         and again to May 1990.

Period First Reported: April 1, 1987 to September 30,1987
                                                            Fire and Life Safety Systems
This review of the construction of a Federal building ad-
vised GSA management of the need to enforce the re-         Period First Reported: April 1, 1984 to September 30, 1984
quirements for schedules and price breakdowns in
construction contracts. The OIG made 13 recommenda-         This consolidated report identified the need for GSA ac-
tions; 11 have been implemented.                            tion to ensure the proper functioning of fire and life
                                                            safety systems in Federal buildings throughout thecoun-
The remaining two recommendations involve obtaining         try. The report contained ten recommendations; nine
a determination from an Architect and Engineering De-       have been implemented.
ficiency Committee and resolving any time considera-
tions. Both recommendations were originally scheduled" The remaining recommendation, which requires testing
for completion in June 1988. Full implementation is now of emergency control and smoke control systems, is
scheduled for September 1989.                           scheduled for implementation in August 1989.

6
Fire and Life Safety Systems                                The remaining report contained four recommendations;
                                                            three have been implemented.
                                                            Implementation of the remaining recommendation,
Period First Reported: October 1, 1983 to March 31, 1984    which involves the installation of a new fire alarm sys-
                                                            tem in a Federal facility, is generally proceeding in accor-
                                                            dance with the action plan, although delays have been
A series of seven OIG reviews identified deficiencies in    experienced and revised implementation dates have been
fire and life safety systems in GSA-controlled space. Six   granted. Full implementation is now scheduled for
reports had been fully implemented by September 1988.       December 1989.




                                                                                                                      7
SECTION III - FEDERAL SUPPLY SERVICE

The Federal Supply Service (FSS) operates a Government-         $2,950,000 Civil Settlement
wide service and supply system that contracts for and
distributes billions of dollars worth of supplies, mate-        On February 23, 1989, the Government entered into a
rials, and services for customer agencies each year. In the     civil settlement agreement with a laboratory equipment
first half of FY 1989, FSS obligated almost $20 million in      and imaging analysis system supplier. Under the terms of
direct operating expense appropriations. Estimated              the settlement, the firm paid $2,950,000 to settle its po-
sales through the General Supply Fund during the same           tential civil liability to the Government.
period were almost $1.1 billion.
                                                                Joint OIG audit and investigative effort disclosed that the
                                                                firm supplied incomplete and inaccurate pricing data to
                                                                GSA contracting officials, and misled GSA about actual
A. Overview of OIG Activity                                     customer pricing. These data were relied upon by GSA in
                                                                negotiating contracts with the firm and, as a result, the
This period, OlG audit coverage of FSS primarily focused        firm secured inflated prices from Federal purchasers.
on contracting activities, particularly preaward audits of      The matter was referred to the Department of Justice for
multiple award schedule contracts. We issued 105 con-           civil action. The settlement agreement was negotiated by
tract audit reports recommending $32.3 million in cost          representatives of the Department of Justice Civil Divi-
avoidances and $8.8 million in recoveries.                      sion and the GSA OIG.
In a series of internal audit reports issued this period, the
OIG presented findings in a variety of FSS program areas,
including transportation audits, contract administra-
tion, donated property, fleet managernent, supply center        $605,000 Civil Judgment
operations, and depot activities. One significant review
identified contracting practices relative to transportation     On October 12, 1988, a U.S. District Court entered a
audit services that could result in the Government's pay-       $605,000 civil judgment for the United States against a
ing an additional $3 million for needed services.               Federal donee. The court found that the donee had con-
                                                                verted surplus Federal property to his personal use.
Joint OIG audit and investigative work resulted in two
civil fraud settlements valued at $2,950,000 and                An OIG investigation had determined that the president
$250,000, respectively. Both settlements resulted from          of a nonprofit emergency medical evacuation and air pa-
OIG disclosures that the firms involved had violated the        trol service had received several aircraft frorn the FSS
price reduction/defective pricing clauses in their GSA          Donated Property Program. The president converted one
contracts.                                                      aircraft, with an original acquisition cost of $776,000,
                                                                to his own use, then sold the aircraft and pocketed the
The OIG completed 66 investigative cases involving FSS          proceeds.
programs, operations, or employees. Of these cases, 50
percent involved allegations of white collar crimes. No-        Relative to related criminal charges, in March 1988, the
tably, one investigation resulted in a $605,000 civil judg-     donee had been sentenced to 3 years in prison, ordered to
ment against the president of a nonprofit air service           make restitution in the amount of $200,000, and fined
corporation. The investigation disclosed that the presi-        $5,000.
dent had converted an aircraft received under GSA's Do-
nated Property Program to his own use, later selling the
aircraft and pocketing the proceeds.
                                                                Transportation Audit Program Contracts
Another investigation, conducted jointly with the U.S.
Drug Enforcement Administration (DEA), resulted in the          GSA's Office of Transportation Audit (OTA) is responsi-
conviction of a former DEA administrative officer for           ble for: auditing transportation bills paid by all Govern-
mail fraud. The officer fraudulently obtained money             ment agencies for both freight and passenger services
from GSA auctions of DEA vehicles.                              worldwidej and recovering carrier overcharges identified
                                                                by these audits. Currently, OTA contracts with pri-
                                                                vate sector audit firms to perform the majority of these
                                                                audits.
B. Significant Audits and
                                                                This period, an OIG review of selected OTA procurement
   Investigations                                               activities concluded that proposed contract modifica-
                                                                tions as well as multiple contract awards could result in
This section summarizes significant internal and post-          the Government's paying an additional $3 rnillion for re-
award audits and investigations dealing with FSS. Sig-          quired services. Present contracts contain three one-year
nificant preaward contract audits are presented in              renewal options entitling the Government to unilaterally
Section C.                                                      extend the terms and conditions of the contracts. These


8
contracts provide for two commission rates that apply for       damage claims, thus maximizing the firm's prospects
the term of the contracts, including option years. The          forfull reimbursement from the Government.
base rate applies to all commissions up to a specified dol-
lar limitation, at which time a second (lower) commis-          The former supervisor and the company officials have
sion rate takes effect. OTA has proposed that GSA invoke        been suspended from conducting business with the Gov-
its options to extend the contracts for one year, but has       ernment. Debarment action on the three individuals is
recommended that the higher commission rates be ap-             pending.
plied, up to the dollar limitations, during the one year
contract extensions. This would permit all new work to
be charged at the higher base rate until the dollar limi-       Multiple Award Schedule Program
tation is again reached. We found no evidence that such
contract concessions were requested by contractors, nor         GSA's Multiple Award Schedule (MAS) program provides
that they were justified.                                       significant savings to the Government on the purchases
                                                                of common-use items, such as desks, paint, office ma-
Also, contracts for auditing the two largest transporta-
                                                                chines, for which individual purchasers do not have
tion modes (air passenger and motor) were originally
                                                                unique product specifications. The savings result from
awarded to three bidders, the lowest bidder and two suc-
                                                                the fact that firms, in bidding for an MAS contract: offer
cessively higher bidders. The rationale for making mul-
                                                                discounts off commercial price lists, thereby facilitat-
tiple awards was that OTA had a large backlog of bills
                                                                ing straightforward price comparisons; and negotiate
requiring audit, and one contractor could not handle the
                                                                prices that reflect the Government's unique place in the
volume of work. Although the backlog has been elimi-
                                                                marketplace.
nated, OTA plans to continue the multiple contracting
practice in the future. We believe that this decision is not    This period, the OlG completed a review of the MAS for
in the best interest of the Government since a single           office machines. We found that FSS's efforts to identify
award could result in significant savings.                      Government requirements for office machines, including
Our December 22, 1988 audit report recommended to               adding machines, calculators, cash registers, time meas-
the Commissioner, Federal Supply Service that:                  uring instruments, and miscellaneous office machines,
                                                                need improvement. The management system intended to
  •   The transportation audit contracts not be modified        provide contractor sales data was not being adequately
      to permit increased commissions in option years.          maintained. Contractors were not submitting required
                                                                Reports of Orders Received (Form 72-A) and contracting
  •   The contracting officer either award a single con-        officers were not taking action to obtain delinquent Form
      tract for the air passenger and motor modes or doc-       72-As. As a result, FSS was hindered when determining
      ument contract files to show the basis and                the suitability of using MAS contracting, agency usage of
      justification for multiple contract awards.
                                                                the schedule, the need for retaining an item on the sched-
The Commissioner provided responsive action plans for           ule, whether additional contractor discounts were due
implementing the report recommendations. Resolution             based on aggregate sales, and the adequacy of perspective
was achieved on March 6, 1989.                                  contract offers.
                                                                We also found that the office machine schedule did not
                                                                list all firms that were awarded contracts, nor did it ac-
Insider Information Scheme Results in Three                     curately list the items that could be purchased from a
Convictions                                                     particular firm. Therefore, agencies were not always
                                                                aware of the availability of certain products and, hence,
On February 3, 1989, a former GSA transportation spe-           may have made purchases at higher prices than those ne-
cialist supervisor was sentenced in U.S. District Court         gotiated in the MAS contracts.
to 30 months in prison after being convicted of bribery,        The December 27, 1988 audit report directed five rec-
conspiracy, conflict of interest, and false statements. A       ommendations to the Commissioner, Federal Supply Ser-
coconspirator president of a freight factoring company          vice, to correct identified deficiencies. These included
was sentenced to 18 months in prison and fined                  recommendations to:
$250,000, while a vice-president of the firm was sen-
tenced to 18 months in prison (suspended), placed on              •   Develop a system that provides for monitoring con-
2 years probation, and fined $5,000.                                  tractor submissions of Form 72-As and sending no-
                                                                      tifications to delinquent contractors.
The convictions stemmed from a joint OIG audit and in-
vestigation that disclosed that the company officials paid        •   Implement procedures for ensuring that award data
the former supervisor to provide inside information on                for all contracts are entered into the management
the reliability of various freight haulers. The information           system.
was utilized by the company when deciding which bills
                                                                  •   Take action to insure that the office machine
of lading to factor. Factoring is the practice whereby a firm         schedule accurately reports data on awarded
purchases bills of lading from a freight hauler at a dis-
                                                                      contracts.
count. The factoring firm then collects the full amount of
the bill, less damages, from the Government. Having in-         The Commissioner agreed with the recommendations in
side information allowed the firm to factor only bills for      the draft report. We are awaiting action plans for imple-
those freight haulers unlikely to have incurred large           menting the recommendations.

                                                                                                                        9
 Fraud Conviction                                              state government customers were not disclosed in the
                                                               firm's offer and that these discounts exceeded the best
 On March 24, 1989, a former u.s. Drug Enforcement             discounts offered to GSA. The report also advised that
 Administration (DEA) administrative officer was sen-          concessions granted to other customers tend to negate
 tenced in U.S. District Court after pleading guilty to two    the status of the Government as "most favored cus-
 counts of mail fraud. He was sentenced to 5 years in          tomer!' In addition, the audit determined that several of
 prison, placed on probation for 10 years, ordered to make     the offered products may not meet the test of commer-
 restitution of $185,000 and perform 1,000 hours of com-       ciality. AccQrdingly, the report recommended a cost
 munity service, and fined $20,000.                            avoidance of $2.9 million.
 The conviction stemmed from a joint GSA OIG and DEA           Negotiations with the contractor are currently underway.
 investigation. The investigation disclosed that the ad-
 ministrative officer fraudulently obtained money gener-
 ated by the sale of vehicles owned by, seized by, or
 forfeited to DEA. The subject instructed vehicle pur-         $2.6 Million Cost Avoidance Recommended
 chasers at GSA auctions to make checks or money orders
 payable to cash or to themselves. He then purchased           The OIG evaluated discount and marketing data submit-
 money orders, for lesser amounts than the actual sales        ted in response to a GSA solicitation for the purchase of
 prices, and submitted them to DEA as the amount col-          laboratory equipment. Estimated sales under the con-
 lected from the sales, while keeping the difference for his   tract are $10.2 million.
 personal use.
                                                               Our November 14, 1988 audit report advised the con-
                                                               tracting officer of discounts not disclosed in the firm's of-
                                                               fer that exceeded those offered to GSA. We further
 $250,000 Civil Settlement                                     advised that the firm did not disclose that its parent
                                                               company was selling some of the same items at higher
 On December 6, 1988, a supplier of laboratory instru-         discounts than disclosed or offered by the firm. As a re-
 ments and equipment agreed to pay the Government              sult, the auditors recommended cost avoidances totaling
 $250,000 to settle potential civil fraud issues. The firm     $2.6 million.
 paid the full amount to the Government at the time of
 settlement.                                                   We are awaiting the contracting officer's position on the
                                                               questioned costs.
 A joint OIG audit and investigation disclosed that the
 firm sold items to its commercial customers at discounts
 greater than those offered to GSA. Failure to disclose
 these discounts during negotiation of contracts violated      $2.1 Million Recommended for Avoidance
 the defective pricing clauses in its GSA contracts.
 The matter was referred to the Department of Justice,         The OIG evaluated discount schedule and marketing
 which declined criminal prosecution, but accepted the         data submitted in response to a GSA solicitation for the
 case for civil litigation and filed suit in U.S. District     purchase of water treatment chemicals. Estimated sales
 Court. The settlement agreement was negotiated by rep-        under the contract are $8.7 million.
 resentatives of the Department of Justice Civil Division      Our January 10, 1989 audit report advised the contracting
 and the GSA OIG.                                              officer that discounts offered to commercial customers
                                                               were not disclosed in the firm's offer and that these dis-
                                                               counts exceeded the best discounts offered to GSA. In ad-
 C . Significant Preaward Audits                               dition, the audit determined that several of the offered
                                                               products may not meet the test of commerciality. Ac-
 The DIG's preaward audit program provides information         cordingly, the report recommended a cost avoidance of
 to contracting officers for use in negotiating contracts.     $2.1 million.
 The pre-decisional, advisory nature of preaward audits        We are awaiting the contracting officer's position on the
 distinguishes them from other audits.                         questioned costs.


 Preaward Questions $2.9 Million of Proposed
 Cost                                                          $1.5 Minion Cost Avoidance Recommended
 The OIG evaluated discount schedule and marketing             The OIG evaluated a cost or pricing proposal submitted
 data submitted in response to a GSA solicitation for the      in response to a GSA solicitation for the purchase of
 purchase of training aids and devices, and programmed         acoustical and speech privacy partitions. Estimated sales
 learning materials. Estimated sales under the contract        under the contract are $ 7. 7 million.
 are $24 million.
                                                               In our November 1, 1988 audit report, we advised the
 Our December 28, 1988 audit report advised the con-           contracting officer that the cost or pricing data contained
 tracting officer that discounts offered to commercial and     in the firm's proposal were overstated or unallowable.

10
The auditors recommended a cost avoidance of $1.5 mil-
lion, principally in the following categories: labor, mate-
                                                                                   De Statistical Highlights
rial, manufacturing burden, intercompany transfers,
purchased parts, and general and administrative
expense.                                                                           The following table compares OIG activity and accom-
                                                                                   plishments wi thin FSS to the overall GSA totals for the
Negotiations with the contractor are currently underway.                           period.




                                                 Activity                                                          FSS        All GSA
     Audit Reports Issued .................................................................................        129            469
     Recommended Cost Avoidance ............................................................... .              $35,291,595   $113,514,487
     Recommended Cost Recovery ................................................................ .               $8,804,537    $12,876,212
     Management Commitments to Avoid Costs ............................................. .                     $44,839,348   $127,855,618
     Management Commitments to Recover Funds ........................................ .                         $3,795,371     $4,276,770
     Percentage of Recommended Cost
       Avoidance Agreed to by Management ................................................. .                       71             75
     Percentage of Recommended Cost
       Recovery Agreed to by Management.. ................................................. .                     151            137
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ............ .                                                    2
     Implementation Reviews Finding Unimplemented Recommendations .... .                                            1              5
     New Investigative Cases .......................................................................... .          84            199
     Criminal Referrals (Subjects) .................................................................. ..           41            123
     Civil Referrals (Subjects) .......................................................................... .        8             17
     Administrative Referrals (Subjects) ......................................................... ..              21             72
     Suspension/Debarment Referrals (Subjects) .......................................... ..                       45             96
     Indictments/Informations/Complaints ....................................................... .                 13             24
     Successful Criminal Prosecutions ............................................................ .               14             20
     Civil Settlements/Judgments .................................................................... .             4              4




E. Significant Audits From                                                         Customer Supply Center Operations

   Prior Reports                                                                   Period First Reported: October 1, 1987 to March 31, 1988
Under GSA's audit resolution system, the OIGis respon-
sible for ensuring resolution of audit recommendations.                            This December 9, 1987 review disclosed several opera-
The Audit Resolution and Internal Controls Division,                               tional and procedural areas that required attention. The
Office of Administration, is responsible for ensuring im-                          report contained 27 recommendations; 26 have been
plementation of resolved audit recommendations. That                               implemented.
office furnished the following status information.
                                                                                   The remaining recommendation requires the sectioning
One significant audit from a prior Report to the Congress                          off of the Customer Supply Center area in the facility by
is not implemented. It is being implemented in accor-                              installing a wall, fence, or equivalent structure. Full im-
dance with currently established milestones.                                       plementation is scheduled for September 1989.




                                                                                                                                            11
SECTION IV -INFORMATION RESOURCES
MANAGEMENT SERVICE

The Information Resources Management Service (IRMS)           that there was inadequate evidence of fraud. Represent-
coordinates and directs a comprehensive Government-           atives from the OIG assisted IRMS officials in negotiat-
wide program for managing and procuring automated             ing the settlement agreement.
data processing (ADP) and telecommunications equip-
ment and services. In the first half of FY 1989, IRMS ob-
ligated over $14 million in direct operating expense
appropriations. Estimated sales through the Information
Technology Fund during the same period were almost            Inventory Management
$512 million.
                                                              This period, the OIG completed an evaluation of the in-
                                                              ventory and financial management controls over ADP
A. Overview of DIG Activity                                   equipment owned by GSA and leased to other Federal
                                                              agencies. We concluded that IRMS had not established
This period, OIG audit coverage of IRMS continued to          sound inventory management practices and, as a result,
emphasize contracting activities, particularly preaward       cannot accurately account for all of the leased equipment
audits of multiple award schedule contracts. We issued        acquired through the Information Technology (IT) Fund.
71 contract audit reports recommending $4'0863,744 in
cost avoidances and $835,410 in recoveries. Notably, a sin-   Our evaluation found no evidence that regularly sched-
gle OIG preaward audit resulted in a management com-          uled physical inventories of leased equipment had been
mitment to avoid $17.4 million.                               performed prior to 198'0 although regulations require
                                                              that GSA perform a complete inventory verification every
Joint OIG audit and investigative effort resulted in a        2 years. Without the performance of regular physical in-
$354,729 administrative settlement agreement with an          ventories,GSA cannot ensure the accountability of
ADP equipment supplier. The OIG review found that the         equipment, the integrity of financial records and ac-
firm sold items to commercial customers at discounts          counts, or the completeness and accuracy of billings to
greater than those disclosed to GSA.                          customer agencies.
OIG investigators completed 13 cases this period involv-      We attributed the noncompliance with inventory verifi-
ing IRMS programs, operations, and employees; most in-        cation requirements to the lack of emphasis placed on
volved white collar crimes.                                   this function by IRMS officials. The low priority is dem-
                                                              onstrated by the fact that, at the time of our review, IRMS
                                                              had just begun to contact customer agencies who had not
B. Significant Audits and                                     replied to, or not been sent, the 1987 inventory inquiries,
                                                              and to initiate action on equipment that customer agen-
   Investigations                                             cies indicated was no longer in their possession. Also,
                                                              IRMS had not designated either a Property Management
This section summarizes significant internal and post-        Officer or an Accountable Officer to manage, control, and
award audits and investigations dealing with IRMS op-         account for leased equipment.
erations. Significant preaward contract audits are
                                                              In our January 31, 1989 report, we directed seven recom-
presented in Section C.
                                                              mendations to the Commissioner, Information Re-
                                                              sources Management Service. These included
                                                              recommendations that:
$354,729 Administrative Settlement
                                                                •   The Director, Financial Management Division,
On February 6, 1989, an ADP equipment supply firm                   establish a schedule and initiate action to perform
agreed to pay the Government $354,729 to settle its po-             physical inventories of all IT Fund leased equip-
tential administrative liability. The Government alleged            ment at least every two years, and initiate the filing
that the firm failed to provide accurate and complete pric-         of appropriate reports for all ADP equipment that
ing data to GSA and failed to disclose price reductions             cannot be specifically accounted for in the 1987
granted during the terms of its GSA contracts.                      inventory.
A joint OrG audit and investigation disclosed that the          •   The Controller, IRMS, designate in writing a Prop-
firm sold items to its commercial customers at discounts            erty Management Officer and an Accountable
greater than those offered to GSA. Failure to disclose              Officer to manage, control, and account for IT Fund
these discounts violated the price reduction/defective              equipment.
pricing clauses in its GSA contracts.
                                                              The Commissioner generally agreed with the recom-
The matter was referred to the IRMS Schedules Division        mendations in the draft report. We are awaiting action
for administrative recovery after the OIG determined          plans for implementing these recommendations.

12
                                                                                   portray the frequency of discounts offered to commercial
C. Significant Preaward Audits                                                     customers and that these concessions tend to negate the
The OIG's preaward audit program provides information                              status of the Government as "most favored customer!' In
                                                                                   addition, the auditors noted that the proposed mainte-
to contracting officers for use in negotiating contracts.
                                                                                   nance discounts are lower than those in the present con-
The pre-decisional, advisory nature of preaward audits
                                                                                   tract. Accordingly, the report recommended a cost
distinguishes them from other audits.
                                                                                   avoidance of $2.3 million.
                                                                                   We are awaiting the contracting officer's position on the
$17.4 Million Avoidance Through Preaward                                           questioned costs.
Audit
On December 2, 1988, GSA management committed it-
self to avoid expenditures of $17.4 million after success-
fully negotiating pricing concessions in that amount                               Preaward Questions $1.1 Million of Proposed
from an ADP equipment firm. The commitment                                         Cost
stemmed from an OIG audit of the firm's $398 million
pricing proposal in response to a GSA solicitation for                             The OIG evaluated cost or pricing proposals submitted
ADP equipment and software.                                                        in response to a GSA solicitation for the purchase of gen-
In our November 8, 1988 audit report, we advised the                               eral purpose ADP equipment and software. Estimated
contracting officer that discounts offered to commercial                           sales under the contract are $4.6 million.
customers were not accurately disclosed in the firm's                              In our December 22, 1988 audit report, we advised the
proposal and that these discounts exceeded the best dis-                           contracting officer that the cost or pricing data contained
counts offered to GSA. We further advised that the firm's                          in the firm's proposals were overstated. The auditors rec-
discount practices were inconsistent with the policy dis-                          ommended a cost avoidance of $1.1 million, principally in
closed to the Government. The report recommended a                                 the following categories: direct labor hours, material and
$24.6 million cost avoidance.                                                      manufacturing overhead, and general and administrative
                                                                                   expense.
$2.3 Million Recommended For Avoidance                                             We are awaiting the contracting officer's position on the
                                                                                   questioned costs.
The OIG evaluated discount schedule and marketing
data submitted in response to a GSA solicitation for the
purchase, rental, maintenance, and repair of general pur-
pose ADP equipment and software. Estimated sales un-                               D. Statistical Highlights
der the contract are $49 million.
                                                                                   The following table compares OIG activity and accom-
The December 22, 1988 audit report advised the con-                                plishments within IRMS to the overall GSA totals for the
tracting officer that the firm's offer did not accurately                          period.



                                                 Activity                                                         IRMS        All GSA
     Audit Reports Issued ................................................................................ .        73            469
     Recommended Cost Avoidance ............................................................... .              $47,863,744   $113,514,487
     Recommended Cost Recovery ............................................................... ..                 $835,410    $12,876,212
     Management Commitments to Avoid Costs ............................................. .                     $55,977,429   $127,855,618
     Management Commitments to Recover Funds ....................................... ..                           $389,335     $4,276,770
     Percentage of Recommended Cost
       Avoidance Agreed to by Management ................................................ ..                        91             75
     Percentage of Recommended Cost
       Recovery Agreed to by Management.. ................................................ ..                       65            137
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ........... ..                                                     2
     Implementation Reviews Finding Unimplemented Recommendations .... .                                                            5
     New Investigative Cases .......................................................................... .            9            199
     Criminal Referrals (Subjects) ................................................................... .             9            123
     Civil Referrals (Subjects) .......................................................................... .         5             17
     Administrative Referrals (Subjects) .......................................................... .                6             72
     Suspension/Debarment Referrals (Subjects) ........................................... .                                       96
     Indictments/Informations/Complaints ....................................................... .                                 24
     Successful Criminal Prosecutions ............................................................ .                               20
     Civil Settlements/Judgments .................................................................... .                             4


                                                                                                                                            13
E. Significant Audits From                                  Telecommunications Systems Management
   Prior Reports
Under GSA's audit resolution system, the OIG is respon-     Period First Reported: October 1, 1985 to March 31, 1986
sible for ensuring resolution of audit recommendations.
The Audit Resolution and Internal Controls Division,
Office of Administration, is responsible for ensuring im-   This OIG review concluded that IRMS needed to
plementation of resolved audit recommendations. That        strengthen its oversight role relative to Government tele-
office furnished the following status information.          communications systems. We made 12 recommenda-
                                                            tions; 11 have been implemented.
One IRMS audit highlighted in a prior Report to the
Congress is not fully implemented. It is being imple-       The remaining recommendation, which involves the
mented in accordance with currently established             development and issuance of technical manuals, is
milestones.                                                 scheduled for full implementation in May 1989.




14
SECTION V-OTHER GSA COVERAGE

Other GSA services and staff offices, such as the Federal     action to obtain the delinquent reports. Without these re-
Property Resources Service, the Office of the Comptrol-       ports, GSA has no knowledge of any resale of the property
ler, and the Office of Administration, comprised the fo-      nor of any realized profit from such resale.
cus for the remainder of the OIG's efforts this period.
                                                              We also found that two conveyance documents for sales
                                                              of real property did not include the required EPC and,
                                                              thus, the Government would have no legal recourse to re-
                                                              cover the excess profits if purchasers later sold the prop-
A. Overview of OIG Activity                                   erties for more than they paid for them.
                                                              Our December 16, 1988 audit report directed four rec-
OIG coverage of the Federal Property Resources Service,       ommendations to the Deputy Regional Administrator to
the Office of the Comptroller, the Office of Administra-      correct identified deficiencies. These included recom-
tion, and other GSA organizations consisted primarily of      mendations to ensure that:
internal management reviews. These reviews resulted in
findings and recommendations in areas such as real              •   The regional monitoring system effectively en-
property disposal, printing operations, payment proce-              forces compliance with EPC requirements.
dures, and imprest funds.                                       •   All conveyance documents for negotiated sales of
An especially noteworthy review advised management of               real property to public entities include the required
the need to improve monitoring procedures over con-                 EPe.
tracts containing an excess profits clause. The OIG con-      The Regional Administrator agreed with the recommen-
cluded that such monitoring is necessary to assure            dations in the draft report. We are awaiting action plans
protection of the Government's interest in the profits re-    for implementing the report recommendations.
alized from subsequent resales of real property.
In addition, 13 imprest fund reviews advised manage-
ment of the need to improve internal controls and physi-
cal safeguards.                                               Internal Controls Require Strengthening
The OIG also compieted 36 investigations involving the
                                                              This period, the OIG completed an evaluation of the op-
personnel, programs, and operations in these GSA areas.       erations at a GSA printing plant. The review disclosed
                                                              that, while the plant is generally operating in compliance
                                                              with policy and procedures, some internal controls
                                                              needed to be strengthened.
B. Significant Audits                                         We found that the manual processes being utilized by the
                                                              plant can result in a misstatement in the material and
This section summarizes significant internal audits in-       supplies inventory. Also, improvements in internal con-
volving the programs and operations of the remaining          trols are necessary to ensure accurate values for the paper
GSA services and staff offices.                               inventory, accurate charges to customers, and billings to
                                                              all customers. Management advised that a new auto-
                                                              mated management information system was being im-
                                                              plemented and could be used to correct these internal
Excess Profits Clause                                         control weaknesses. In addition, we found that account-
                                                              ability over operating equipment is inadequate because
The Excess Profits Clause (EPe) requires that profits re-     prescribed inventory procedures were not followed.
sulting from the subsequent resale of property, within
three years of the date purchased from the Government,        Our March 13, 1989 audit report recommended that
will accrue to the Government. All contracts for the ne-      the Acting Assistant Regional Administrator for
gotiated sales of surplus Federal real property to public     Administration:
entities must contain this clause.
                                                                •   Include specific controls in the new automated
This period, the OIG completed an evaluation of a GSA               management information system to: assure that
region's administration of the EPC for negotiated real              the unit of purchase of paper is properly recorded,
property sales. Although our review did not identify any            improve the accuracy of paper pricing, and
transaction in which a public entity realized a profit from         strengthen billing procedures.
the resale of property obtained from GSA, we concluded
                                                                •   Ensure that operating equipment inventory proce-
that improvements in controls are necessary to assure               dures are followed.
compliance with the EPC requirements and protect the
Government's interest. For example, three public entities     The Regional Administrator agreed with the recom-
had not submitted required annual reports on the own-         mendations in the draft report, stating that actions have
ership status of purchased property, and GSA did not take     been initiated to correct the identified deficiencies. We

                                                                                                                       15
are awaltlllg action plans for implementing the                                     changed, inadequate safeguarding of duplicate keys, and
recommendations.                                                                    duplicate keys not kept in case of emergency. Finally, the
                                                                                    amount of cash maintained in one fund was insufficient
                                                                                    to cover normal disbursements, while the amount of cash
                                                                                    maintained in another fund exceeded the amount neces-
Imprest Funds                                                                       sary to cover normal disbursements.
OIG reviews of 13 imprest funds in 6 GSA regions dis-                               In 13,reports issued this period, the OIG offered recom-
closed weaknesses in internal controls, inadequate phys-                            mendations to correct these and other deficiencies. Four
ical safeguards, and cash levels that were either                                   of the reports are resolved; we are awaiting action plans
insufficient or exceeded required amounts. Internal con-                            for the other nine reports.
trol weaknesses, identified in ten funds, included: non-
performance of unannounced cash counts, use of a
common cash box by several cashiers, improper segre-
gation of duties, expenditures without proper approval,
and insufficient training of cashiers. The physical secu-
rity problems, which were found in ten funds, included:
                                                                                     c.      Statistical Highlights
failure to use escorts to reduce the risk of in-transit theft,                      The following table compares OIG activity and accom-
lack of "bait" money in cash drawer for identification in                           plishments in other GSA areas to the overall GSA totals
the event of theft, safe combinations not properly                                  for the period.



                                                   Activity                                                     Other GSA       All GSA
      Audit Reports Issued....................... ..........................................................        33             469
      Recommended Cost Avoidance ............................................................... .                            $113,514,487
      Recommended Cost Recoverv ................................................................ .                             $12,876,212
                                              to
      Management Commitments Avoid Costs ............ ...... .... .......... ........ ......                     $3,020,667   $127,855,618
      Management Commitments to Recover Funds ........................................ .                                        $4,276,770
      Percentage of Recommended Cost
        Avoidance Agreed to by Management ..................................................                        49              75
      Percentage of Recommended Cost
        Recovery Agreed to by Management.. ................................................. .                                    137
      Unresolved Audits Older Than 6 Months (Excluding Preawards) ............ .                                                    2
      Implementation Reviews Finding Unimplemented Recommendations .. '"                                                             5
      New Investigative Cases...........................................................................            43            199
      Criminal Referrals (Subjects) ................................................................... .                         123
      Civil Referrals (Subjects) .......................................................................... .                      17
      Administrative Referrals (Subjects) ............................................. ..............               22            72
      Suspension/Debarment Referrals (Subjects) ........ .................... ................                        3            96
      Indictments/Informations/Complaints ....................................................... .                                24
      Successful Criminal Prosecutions ............................................................ .                              20
      Civil Settlements/Judgments .................................................................... .                             4




D . Significant Audits From                                                          Controls Over Payments for Credit Card
                                                                                     Purchases
    Prior Reports
Under GSA's audit resolution system, the 01 G is respon-                             Period First Reported: April 1, 1988 to September 30, 1988
sible for ensuring resolution of audit recommendations.
The Audit Resolution and Internal Controls Division,
Office of Administration, is responsible for ensuring im-                            This OIG review concluded that enhancements to sys-
plementation of resolved audit recommendations. That                                 tems edits for the Credit Card Accounts Payable System
office furnished the following status information.                                   are necessary. The report contained six recommenda-
                                                                                     tions; two have been implemented.
With regard to GSA services and staff offices other than
PBS, FSS, and IRMS, only two significant audits from                                 The remaining four recommendations generally involve
prior Reports to the Congress are not fully implemented.                             specific actions to prevent credit card abuse. Full imple-
Both reports are being implemented in accordance with                                mentation for all four recommendations is scheduled for
established milestones.                                                              October 1989.

16
Imprest Fu.nd Reviews                                        had been fully implemented by March 1989. The remain-
                                                             ing report contained seven recommendations; six have
                                                             been implemented.
Period First Reported: April 1, 1988 to September 30, 1988
                                                             Implementation of the remaining recommendation,
                                                             which involves the testing of the foot-operated alarm sys-
A series of 14 OIG reviews identified deficiencies in im-    tem, is proceeding in accordance with the action plan.
prest funds at 16 locations nationwide. Thirteen reports     Full implementation is scheduled for May 1989.




                                                                                                                    17
SECTION VI-STATISTICAL SUMMARY OF OIG
ACCOMPLISHMENTS

The previous sections of this report presented OIG activ-     Based on audit reports issued in this and prior periods,
ity and accomplishments by GSA service and staff office.      management committed itself to use $127,855,618 more
In the pages that follow, overall OIG accomplishments         efficiently and to recover $4,276,770. This latter figure
are comprehensively reported. To facilitate cross-refer-      includes $4,086,625 resulting from efforts that involved
encing, the GSA organizational orientation is main-           OIG audit, investigative, and legal collaboration.
tained in these summary statistics. However, there is not
a one-to-one correspondence between the data reported         The OIG opened 199 investigative cases and closed 196.
by GSA organization and the overall statistics, because       We referred 53 cases (123 subjects) for criminal prose-
a portion of our work involved non-GSA operations.            cution, 10 cases (17 subjects) for civil litigation, and
                                                              5 cases for further investigation by other Federal or state
                                                              agencies. Based on these and prior referrals, 24 cases
                                                              (39 subjects) were accepted for criminal prosecution and
                                                              8 cases (11 subjects) were accepted for civil litigation.
                                                              Criminal cases originating from OIG referrals resulted
                                                              in 21 indictments/informations and 20 successful pros-
A. DIG Accomplishments                                        ecutions. OIG civil referrals resulted in 3 civil fraud
                                                              complaints and 4 settlements/judgments. These actions
During the reporting period, the OIG issued 473 audit re-     resulted in determinations that $4,321,882 is owed the
ports, including 26 performed for the OIG by another          Government. Through investigations, we also identified
agency. These reports contained financial recommenda-         for recovery money/property worth $2,258,268. These
tions totaling $131,973,741, including $119,097,529 in rec-   monetary figures include $4,086,625 also reported under
ommendations for more efficient use of resources (cost        management commitments to recover funds, since they
avoidance) and $12,876,212 in recommendations for the         resulted from collaborative efforts involving OIG audi-
recovery of funds.                                            tors, investigators, and attorneys.




18
We referred 84 cases to GSA management for administra-
tive action. This total includes 21 case referrals (96 sub-
                                                                   B. Summary Statistics
jects) for suspension/debarment and 63 case referrals
(72 subjects) for other administrative actions. Based on
these and prior referrals, management debarred                     1. Audit Reports Issued
34 contractors, suspended 18 contractors, reprimanded
16 employees, suspended 8 employees, and terminated                Table 1 summarizes OIG audit reports issued this period
2 employees.                                                       by GSA program area. The table includes 26 audits, rec-
                                                                   ommending a total cost avoidance of $lO,093,482, which
The following subsection presents detailed information             were performed for the GSA OIG by the Defense Contract
on these and other quantifiable accomplishments.                   Audit Agency.



                                              Table 1.   Summary of OIG Audits
                                                         Percentage          Recommended            Recommended
                   GSA                       Reports      of Total               Cost                   Cost
                 Program                     Issued        Audits              Avoidance              Recovery

     PBS
     -Internal ...........................    111                             $  4,730,985           $ 2,412,786
     -Contract. .........................     123
                                              -
                                                                                25,628,163            _~23,479
                                              234            50               $ 30,359,148           $ 3,236,265

     FSS
     -Internal ...........................      24                            $  2,980,699           $
     -Contract. .........................      105                              32,310,896             8,804,537
                                               129           27               $ 35,291,595           $ 8,804,537

     IRMS
     -Internal ...........................       2                            $                      $
     -Contract. .........................       71                              47,863,744
                                                                               ------
                                                                                                         835,410
                                                73           15               $ 47,863,744           $   835,410

     Other GSA
     -Internal ...........................      32                             $                     $
     -Contract. .........................        1
                                                33            7               $                      $

     Non-GSA
     -Internal ...........................       3                            $                      $
     -Contract. .........................        1                                 5,583,042
                                                 4                             $   5,583,042         $

     TOTAL ...............................     473           100               $119,097,529          $12,876,212
     TOTAL COSTS
     RECOMMENDED ..............               $131,973,741




                                                                                                                        19
2. Audit Reports Resolved                                               overdue-a statistic that reflects creditably on GSA's
                                                                        audit resolution efforts.
Table 2 summarizes the universe of audits to be resolved                It should be noted that Table 2 does not include: the
by the OIG and GSA management during this period, as                    4 reports issued to other agencies this period and reports
well as the status of those audits as of March 31, 1989.                excluded from the resolution system because they per-
Sixty-six reports more than 6 months old were unre-                     tain to ongoing investigations. As of March 31, 1989,
solved as of March 31, 1989 i but 64 of them were preaward              48 reports (9 issued this period, 39 issued in prior pe-
audits, which are not subject to the 6-month resolu-                    riods) had been excluded from the resolution system for
tion requirement. Thus, only two reports were actually                  the latter reason.



                                            Table 2.          Resolution of OIG Audits
                                                                            Reports With                     Total
                                                               No. of         Financial                    Financial
                                                              Reports     Recommendations               Recommendations

     Unresolved as of 10/1/88
     -Less than 6 months old ........................ ..        212                135                     $ 99,231,482
     -More than 6 months old ........................ .         104                 92                       60,549,164
     Reports issued this period ........................ .      460                236                      121,802,610
     TOTAL TO BE RESOLVED ...................... .              776                463                     $281,583,256

     Reports resolved
     -Issued prior periods .............................. .     250                165                     $106,306,008
     -Issued current period ............................ .      264                103                       62,017,717
     TOTAL RESOLVED ................................ ..         514                268                     $168,323,725

     Unresolved as of 3/31/89
     -Less than 6 months old ........................ ..        196                133                     $ 59,784,893
     -More than 6 months old ....................... ..          66                 62                      _53,474,638
     TOTAL UNRESOLVED ............................ .            262                195                     $113,259,531




20
3. Resolution Decisions on Financial                                  audit resolution process. In fact, in a number of individ-
                                                                      ual cases, contracting officers resolved to seek savings in
   Recommendations                                                    excess of the amounts recommended by the OIG.
                                                                      In accordance with GSA Order ADM 2030.2A, resolu-
                                                                      tion decisions on financial recommendations contained
                                                                      in contract audit reports result in resolved cost avoidance
Table 3 provides detailed information on the 268 reports              or recovery. Management commitments occur subse-
involving financial recommendations of $168,323,725                   quently, at the time of contract settlement. For internal
that are identified in Table 2 as being resolved this period.         audits, management commitments occur at the time of
Notably, $153,541,426 or over 91 percent was upheld in the            resolution.



                                      Table 3.        Resolution Decisions on OIG Audits
                                                      Recommended          Resolved      Recommended             Resolved
                        GSA                               Cost               Cost            Cost                  Cost
                      Program                          Avoidance           Avoidance       Recovery              Recovery

     PBS
     -Internal ....................................   $  4,437,440     $  4,628,600        $  26,370            $  91,672
     -Contract ..................................       34,968,929       31,102,456          319,981               56,362
                                                                                                                 -----
                                                      $ 39,406,369     $ 35,731,056        $ 346,351            $ 148,034
     FSS
     -Internal ....................................   $  3,021,699     $  3,021,699        $                    $
     -Contract ..................................       60,090,986       46,182,559
                                                                        --------
                                                                                            2,908,836            4,301,972
                                                      $ 63,112,685     $ 49,204,258        $2,908,836           $4,301,972
     IRMS
     -Internal ....................................   $                $                   $                    $
     -Contract ..................................       54,642,771       60,078,166         1,012,013
                                                                                            -----
                                                                                                                  800,053
                                                                                                                 ----
                                                      $ 54,642,771     $ 60,078,166        $1,012,013           $ 800,053
     Other GSA
     -Internal ....................................   $                $                   $                    $
     -Contract ..................................         6,124,ggg         3,200,817        770,700
                                                                                               ----.--~-
                                                                                                                       77,070
                                                                                                                    "---------
                                                      $   6,124,000    $    3,200,817      $ 770,700            $      77,070

     TOTAL ........................................   $163,285,825     $148,214,297        $5,037,900           $5,327,129

      TOTAL
      RESOLVED
      COSTS .......................................   $153,541,426




                                                                                                                                 21
4. Contract Audit Settlements                                            in negotiations with contractors. Overall, management
                                                                         commitments on GSA audits represented over 79 percent
Table 4 compares contract audit resolution amounts with                  of the resolved amounts.
the corresponding management commitments achieved



                                   Table 4.         Summary of Contract Audit Settlements
                                                                      Avoidance                         Recovery.
                    GSA                          No. of          Costs      Management            Costs     Management
                  Program                       Reports         Resolved    Commitment           Resolved   Commitment

     PBS
     -Prior ............................... .    117      $ 31,886,978       $ 18,008,784       $                $
     -Current .......................... .        22         1,971 ,84_~        1,380,790             392
                                                                                                  --""--
                                                                                                                         392
                                                 139      $ 33,858,820       $ 19,389,574       $     392        $       392
     FSS
     -Prior ............................... .     125     $ 43,277,736       $ 40,260,109       $3,857,195       $3,768,740
     -Current .......................... .         17        3,712,848          1,557,540           ~Q43             26,631
                                                  142     $ 46,990,584       $ 41,817,649       $3,875,238       $3,795,371
     IRMS
     -Prior. .............................. .     105     $ 43,387,315       $ 37,777,429       $ 384,746        $ 389,335
     -Current .......................... .          9       25,560,000
                                                           ------
                                                                               18,200,000                            -----
                                                  114     $ 68,947,315       $ 55,977,429       $ 384,746        $ 389,335
     Other GSA
     -Prior. .............................. .       3     $     3,200,817    $    3,020,667     $                $
     -Current .......................... .          1         --_._---_._-       -------
                                                    4     $     3,200,817    $    3,020,667     $                 $
     TOTAL ............................... .     399      $152,997,536       $120,205,319       $4,260,376       $4,185,098*

     TOTAL
     MANAGEMENT
     COMMITMENTS................                 $124,390,417

     *Includes $4,086,625 also reported under Monetary Results.




5. Total Management Commitments                                          7. Audit Followup
Drawing upon the information presented in Tables 3 and                   GSA Order ADM 2030.2A places primary responsibility
4, OIG internal and contract audits involving GSA pro-                   for followup on the implementation of resolved audit rec-
grams resulted in management commitments to more                         ommendations with the Audit Followup Official. The
efficiently use $127,855,618 and to recover $4,276,770.                  Audit Resolution and Internal Controls Division, Office
                                                                         of Administration, acts as staff to the Audit Followup Of-
                                                                         ficial in this function.
6. Recoveries                                                            The OIG performs its own independent reviews of imple-
                                                                         mentation actions on a test basis. This period, the OIG
The General Accounting Office has recommended that                       performed 22 implementation reviews. Management had
OIG Reports to the Congress include data on actual mon-                  successfully implemented the recommendations con-
etary recoveries in addition to management commitment                    tained in 17 of these reviews. In the other 5 instances,
information. Although such a requirement has not yet                     recommendations were not being implemented in accor-
been instituted, the GSA OIG requested data on actual                    dance with the action plans. Four of these audits involved
audit recoveries from GSA's Audit Resolution and Inter-                  PBS programs; the other audit involved an FSS activity.
nal Controls Division. Between October I, 1988 and
March 31, 1989, Agency records show that $3,386,683                      A report on each implementation review was distributed
was recovered and deposited in the Treasury as the result                to the cognizant management official and to the Audit
of OIG audits.                                                           Resolution and Internal Controls Division.




22
8. Investigative Workload                                                               In addition to these cases, the OIG received and evalu-
                                                                                        ated 145 complaints/allegations from sources other than
Table 5 presents detailed information on investigative                                  the Hotline that involved GSA employees and programs.
workload by case category: The OIG opened 199 cases and                                 Based upon analyses of these allegations, OIG investi-
closed 196 cases; only 42 of these cases were administra-                               gations were not warranted.
tively closed without referral.



                                                      Table 5.              Investigative Workload
                                Case                                        Cases Open          Cases                Cases               Cases Open
                               Category                                       10/1/88           Opened               Closed                   3/31/89
     White Collar Crimes .....................................                    289                 74                  78                   285
     Other Crimes Involving GSA Operations .....                                   44                 25                  22                     47
     Contractor Suspension/Debarment .............                                 42                 27                  15                     54
     Employee Misconduct .................................                         43                 17                  35                     25
     Other ............................................................            42                 56                  46                   -
                                                                                                                                                 52
     TOTAL .........................................................              460               199                 196                    463



Table 6 distributes the 199 new investigative cases                                     within the white collar crime category: Most of the new
opened this period (Table 5) by case category and GSA                                   cases (74 percent) involved PBS and FSS programs.
program area. Notably, 37 percent of the cases opened fell



                                    Table 6.           Distribution Of Cases Opened This Period
                                 Case                                                                                                         Other
                                Category                                          PBS               FSS                IRMS                   GSA
      White Collar Crimes .................................... .                  28                 40                    4                     2
      Other Crimes Involving GSA Operations .... .                                11                 11                    1                     2
      Contractor Suspension/Debarment ............ .                               8                 16                    1                     2
      Employee Misconduct ............................... ..                      10                   3                   1                     3
      Other ........................................................... .          6                 14                    2                    34
      TOTAL ........................................................ .            63                 84                    9                    43



9. Referrals                                                                            The OIG also referred 10 cases involving 17 subjects to
                                                                                        either the Civil Division of the Department of Justice or
The OIG makes three types of referrals to officials out-                                a U.S. Attorney for civil fraud litigation consideration.
side GSA: criminal, civil, and investigative. During this                               The status of OIG civil referrals is as follows:
period, we referred 53 cases involving 123 subjects to the
Department of Justice or other authorities for criminal
prosecutive consideration. The status of OIG criminal                                                                                          Cases    Subjects
referrals is as follows:                                                                   Pending Litigation Decision as
                                                                                             of 10/1/88 ............................. ..        10         18
                                                        Cases         Subjects             Referrals .................................... .     10         17
  Pending Prosecutive Decision                                                             Declinations ............................. .          2          3
    as of 10/1/88 ......................... .              16                51            Accepted for Litigation ........... ..                8         11
  Referrals .................................... .         53               123            Pending Litigation Decision as
  Declinations ............................. .             30                72              of 3/31/89 .............................. .        11        21
  Accepted for Prosecution ........ ..                     24                39
  Pending Prosecutive Decision                                                          The OIG made 5 referrals to other Federal or State agen-
    as of 3/31/89 ........................ ..              17               63          cies for further investigation or other action.




                                                                                                                                                                23
10. Administrative Referrals and Actions                                                 11. Contractor Suspensions and
Frequently, OIG investigations disclose nonprosecutable
                                                                                             Debarments
wrongdoing on the part of GSA employees, contractors, or
private individuals doing business with the GSA. The
OIG refers these cases to GSA officials for administrative
action.                                                                                  This period, the OIG referred 4 cases involving 18 sub-
                                                                                         jects for suspension and 17 cases involving 78 subjects for
During the period, we referred 63 cases involving 72 sub-                                debarment. As a result of these and prior referrals, man-
jects for administrative action. In addition, we n:ferred                                agement imposed 18 suspensions (includes 5 suspensions
49 cases involving 64 subjects to GSA officials for infor-                               resulting from debarment referrals) and 34 debarments.
ma tional purposes only.                                                                 Management disapproved 17 debarments.
The status of OIG administrative referrals is as follows:                                The status of OIG suspension and debarment referrals is
                                                                                         as follows:
                                                          Cases         Subjects
  Pending Decision                                                                                       Suspensions                           Cases      Subjects
  - as of 10/1188 ......................... .                48               52
  Referrals .................................... .           63               72           Pending as of 10/1/88 ............... .               7          18
  Action Completed .................... .                    73               78           Referrals .................................... .      4          18
  Pending Decision                                                                         Action Completed .................... .               4          13
    as of 3/31189 ......................... .                38               46           Pending as of 3/31189 ... ............ .              7          23
Of the 63 cases referred for administrative action this pe-
riod, 27 cases (29 subjects) involved GSA employees. As a
result of these and prior referrals, management took the
following actions against GSA employees:
                                                                                                         Debarments                            Cases      Subjects

     Reprimands .............................. .             16                            Pending as of 10/1188 ............... .              13          52
     Suspensions .............................. .             8                            Referrals .................................... .     17          78
     Demotions ................................ .                                          Action Completed .................... .              11          51
     Terminations ............................ .               2                           Pending as of 3/31189 ............... .              19          79




12. Summary of Referrals by GSA                                                          Table 7 summarizes OIG referrals this period by type of
                                                                                         referral and GSA program area.
    Program Area


                                             Table 1. Summary Of OIG Subject Referrals
                                     GSA                                                                             Adminis-                 Suspension!
                                                                              Criminal           Civil                trative                  Debarment
        PBS ............................................................ .         73               4                      23                        48
        FSS ............................................................. .        41               8                      21                        45
        IRMS ........................................................... .          9               5                       6
        Other GSA .................................................. .                                                     22                         3
        TOTAL ........................................................ .           123            17                       72                        96




24
13. Criminal and Civil Actions                                                      against 3 individuals, settlements being reached in
                                                                                    3 cases with 3 subjects, and a judgment being entered in
                                                                                    1 case involving 1 individual.
Cases accepted for criminal prosecution during this and
prior periods resulted in 21 indictmentslinformations                               Table 8 summarizes individual criminal and civil actions
and 20 successful prosecutions. Civil referrals from this                           by GSA program area. In addition, there were unsuccess-
and prior periods resulted in 3 civil fraud complaints                              ful criminal cases against 4 subjects.



                                     Table 8.            Summary Of Criminal And Civil Actions
                                                                                Indictments/                               Civil
                                    GSA                                        Informations/       Successful          Settlements/
                                 Program                                         Complaints       Prosecutions '       Judgments
     PBS ................................................................. .        10                   6
     FSS ................................................................. .        13                  14                   4
     IRMS ............................................................... .          1
     Other GSA ...................................................... .
     TOTAL ............................................................ .           24                  20                   4




14. Monetary Results                                                                In addition, the OIG identified for recovery $2,258,268
                                                                                    in money and/or property during the course of its
                                                                                    investigations.
Table 9 presents the amounts determined to be owed the                              Because of the collaborative nature of OIG activities,
Government as a result of criminal and civil actions. The                           $4,086,625 of the amounts reported as investigative re-
amounts do not necessarily reflect actual monetary                                  coveries and criminal and civil recoveries is also reported
recoveries.                                                                         under management commitments to recover funds.



                                               Table 9.           Criminal And Civil Recoveries
                                                                                 Criminal               Civil                Total

      Fines and Penalties ........................................ .             $301,795            $ 605,000             $ 906,795
      Settlements/Judgments .................................. .                                      3,203,693             3,203,693
      Restitutions ...................... , .............................. .      211,394                                     211,394
      TOTAL ........................................................... ..       $513,189            $3,808,693            $4,321,882



15. OIG Subpoenas
During the period, 24 OIG subpoenas were issued.




                                                                                                                                            25
SECTION VII - REVIEW OF LEGISLATION AND
REGULATIONS

Section 4(a)(2) of the Inspector General Act of 1978 re-             independent of the agency, yet works cooperatively
quires the OIG to review existing and proposed legL~la­              with the agency to accomplish the goals of the Act.
tion and regulations relating to GSA programs and
operations. To fulfill this legislated responsibility, the       •   H. R. 215, a bill to amend Title 5, United States
OIG maintains a clearance system that ensures OIG re-                Code, with respect to the method by which pre-
view of all proposed legislation, regulations, and internal          mium pay is determined. We strongly supported
directives affecting any aspect of GSA operations.                   this bill, which would mandate premium pay when
                                                                     it is determined that a position involves adminis-
                                                                     tratively uncontrollable overtime. We noted that
                                                                     the bill would, in effect, remove the current ceiling
A. Legislation/Regulations                                           on premium pay and equate it to the grade level of
                                                                     the employee involved.
   Reviewed                                                      •   S. 166, the Consultant Registration and Reform Act
                                                                     of 1989. We generally supported enactment of this
During this period, the OIG reviewed 128 legislative                 bill, while suggesting revisions to require the sub-
matters and 100 proposed regulations and directives.                 mission of unsolicited contract proposals, modifi-
                                                                     cations, and justifications to the agency's advocate
                                                                     for competition, rather than to the Inspector Gen-
B. Significant Comments                                              eral, for review. We commented that, in our opin-
                                                                     ion, Inspector General involvement in the process
The OIG provided significant comments on the following               is appropriately provided for in the section of the
legislation, regulations, orders, and directives:                    bill requiring an assessment of compliance in the
                                                                     annual reports required by Section 1114(b) of
     •   H. R. 54, the Truth in Government Efficiency Re-            Title 31.
         form Act of 1989. We supported this bill which pro-
         vides for the appointment of chief financial officers   •   S. 535, the Federal Civil Penalties Inflation Adjust-
         in each agency, while noting that there is no provi-        ment Act of 1989. We supported the purpose of this
         sion for the appointment of a chief financial officer       bill, believing that increasing the amount of civil
         for the entire Federal Government. We expressed a           monetary penalties which may be imposed for vio-
         preference for the creation of such a position              lations of Federal statutes can only improve the de-
         within the Department of Treasury with the ap-              terrent effect of those statutes. We commented that
         pointment being made by the President subject to            an increase in penalties is especially appropriate in
         Senate confirmation. We fully endorsed the re-              those laws relating to the procurement process
         quirement for annual audits of financial state-             considering the large sums of money often in-
         ments and suggested the need for the development            volved. We observed that the mechanism in the bill
         of guidance for valuing and reporting assets and li-        to increase penalties to keep pace with inflation
         abilities unique to the Federal Government.                 would be useful.
     •   H. R. 102, the Independent Defense Procurement          •   ADM 2800.12D, Procurement of Advisory and
         Corps Act of 1989. This bill essentially removes the        Assistance Services Instructional Letter. We noted
         Department of Defense Inspector General (IG)                that the proposed regulation is inconsistent with
         from the coverage of the Inspector General Act by           the provisions of the Inspector General Act. We
         establishing a new IG office independent of the De-         suggested revisions so that the OIG will: not be re-
         partment. We commented that little would be                 quired to obtain approval from, or coordinate with,
         gained by making an Office of Inspector General             agency management in procuring advisory and as-
         organizationally independent, and that such a               sistance services; determine and control funding
         move might create an adversarial relationship. We           availability for these services; and have responsi-
         noted that, in our experience, the GSA Office of In-        bility for maintaining obligations within the fund-
         spector General, which is covered by the IG Act, is         ing authority and providing quarterly reports to the




26
    Comptroller concerning changes in such funding        •   FSS P 2901. 9, Contract Closeout. We proposed that
    authority.                                                the Contract Administration Closeout procedure
                                                              specify that the contract file is to remain open as
•   PBS P 3410.1 0, Instructions to Contract Architect-       long as that contract is under investigation. We sug-
    Engineers. We disagreed with the position that ne-        gested that GSA management clarify the type of
    gotiated Architect-Engineers service contracts do         irregularity that must be referred to the Office of
    not always require cost or pricing data. We com-          Inspector General and management's responsibili-
    mented that Architect-Engineer contracts are re-          ties when an investigation will not be performed.
    quired by law to be negotiated, and that cost or          We also recommended that penalties for certain
    pricing data must be disclosed to GSA for any ne-         types of misconduct be revised to give manage-
    gotiated contract or contract modification that ex-       ment broader latitude, other than removal, for first
    ceeds $100,000.                                           offenses.




                                                                                                                27
SECTION VIII-OTHER OIG ACTIVITIES

In addition to detecting problems in GSA operations, the      The OIG's program for reviewing leases prior to award
OIG is responsible for initiating actions to prevent fraud,   provides front-end assurance that GSA is adhering to reg-
waste, and abuse and to promote economy and efficiency.       ulations and procedures before awarding selected leases
This section details: the OIG program responding to           involving annual rentals in excess of $200,000. The re-
these legislated prevention responsibilities, and OIG in-     views, although advisory in nature, limit opportunities
volvement in projects sponsored by the President's            for fraud, waste, and aquse in the leasing area.
Council on Integrity and Efficiency (PCIE).
                                                              The program achieved the following results during the
                                                              reporting period:
                                                                Lease proposals submitted for review ..............          124
A. DIG Prevention Program                                       Lease proposals reviewed..................................    65
                                                                Lease proposals with deficiencies.....................        45
The OIG prevention program is comprised of four ele-            Lease proposals with no deficiencies................          20
ments that simultaneously focus on minimizing oppor-
tunities for fraud, waste, and abuse and promoting            Major deficiencies identified through OIG preaward ad-
awareness among GSA employees. This four-pronged ap-          visory reviews related to: proposed annual rental exceed-
proach consists of:                                           ing the prospectus amount; lease file not supporting the
                                                              award decision; failure to negotiate an hourly overtime
     •   Defining areas vulnerable to fraud, waste, and       rate; lease not processed in accordance with laws and
         abuse and assessing the degree of vulnerability.     procedures governing competition; possible unenforca-
     •   Anticipating potential problem areas and perform-    ble damages clause. Other deficiencies included: incom-
         ing front-end reviews to help ensure that programs   plete lease files; conflicting lease provisions; no fire and
         will operate within applicable laws, policies, and   safety review; identified fire safety deficiencies not yet
         procedures.                                          corrected; and understated Government occupancy rate.
     •   Educating GSA employees on the manifestations of
         fraud and the mechanisms for reporting suspicions
         or allegations to the OIG.                           3. Education
     e   Communicating the OIG presence and establish-
                                                              Integrity Awareness Briefings comprise the OIG's pri-
         ing mechanisms that promote a dialogue between
                                                              mary vehicle for educating employees on the manifesta-
         GSA employees and the OIG.
                                                              tions of fraud and abuse. These briefings explain the
                                                              statutory mission of the OIG and the functions executed
                                                              by each of our component offices. In addition, through
1. Definition                                                 case studies and slides, the briefings expose GSA employ-
                                                              ees to actual instances of white collar crime in GSA and
The OIG considers the identification of vulnerable areas      other Federal agencies.
to be a major prerequisite to the prevention of fraud,
waste, and abuse. To improve OIG capabilities in this         The OIG conducts 'two types of Integrity Awareness
area, we expended considerable resources during the re-       briefings: general awareness briefings that are geared par-
porting period on enhancing the annual audit planning         ticularly to new GSA employees, and program-specific
process, including: stratifying the potential workload        briefings that are targeted to employees working in spe-
into four primary types of audits (contract, policyassess-    cific GSA programs. Since the inception of this program
ments, recurring reviews, and regional issues), compiling     in 1981, 13,000 GSA employees have attended Integrity
a consolidated inventory of potential Multiple Award          Awareness Briefings. This total includes the 1,802 Cen-
Schedule reviews to improve workload definition in this       tral Office and regional employees attending 49 briefings
area, and establishing Audit Planning Committees for          this period.
GSA's major program areas to identify issue areas and
prioritize planned workload assignments.
                                                              4. Communication
2. Anticipation                                               A free flow of information between GSA employees and
                                                              the OIG is a vital prevention and detection element. Re-
OIG anticipation activities this period focused on prea-      cognizing this fact, the OIG issues brochures on the Hot-
ward audits (Sections II through V), review of proposed       line and its Report to the Congress, and displays Hotline
legislation and regulations (Section VII), and continued      posters in all GSA buildings nationwide. We also distrib-
preaward coverage of GSA's leasing program. These ac-         ute an OIG informational brochure to communicate the
tivities stem from the belief that many of tomorrow's         OIG's mission and responsibilities to GSA managers and
problems can be avoided through decisive action today.        employees, and to serve as a recruitment tool.


28
During the reporting period, we received 122 Hotline           integrated financial management system and the OIGs'
calls and letters. Of these, 79 complaints warranted fur-      audit involvement in the process.
ther action. We also received 8 referrals from GAO and
                                                               The questionnaires have been analyzed and consoli-
14 referrals from other agencies; all of these referrals re-
                                                               dated. The results of the project will be summarized in a
quired further action. The remaining 43 Hotline com-
                                                               consolidated report to be issued by the Department of
plaints required no further action and were closed.
                                                               Transportation OIG.


B. Projects Sponsored by the                                   4. Review of Advisory and Assistance
                                                                  Services
   PCIE
                                                               The GSA OIG is participating in this three-phased PCIE
The OIG continued to participate in interagency projects       review. The project was initiated to evaluate the Govern-
sponsored by the PCIE as well as having OIG staff mem-         ment's use of consultant contracts.
bers provide ongoing support to several PCIE commit-
tees. Specific involvement this period is delineated by        The first phase involved a compilation and summary of
project or activity in the paragraphs that follow.             reports issued by PCIE members on consultant con-
                                                               tracts; the summary was completed in September 1988.
                                                               The second phase involved individual OIG reviews of
                                                               their agencies' compliance with Office of Management
1. Review of Relocation Services                               and Budget guidelines for awarding consultant ser-
                                                               vice contracts; a report was issued to management in
   Contracts                                                   March 1989. The third phase involves reviews of FY 1987
                                                               contracts to determine the extent to which agencies fol-
The GSA OIG is the lead agency on this PCIE review
                                                               lowed sound procurement practices and utilized the ser-
aimed at: evaluating the utilization and administration
                                                               vices to be provided under the terms of these contracts;
of relocation services contracts throughout the Govern-
                                                               this phase is in process.
ment; and identifying efficient and effective ways to pro-
vide needed services.
Evaluation of questionnaires directed to the PCIE mem-         5. Review of the Characteristics of
ber agencies to obtain information on the scope and na-           Closed Investigative Cases
ture of their relocation services contracts has been
completed. Participating agencies started fieldwork dur-       The GSA OIG is a participating member in this PCIE
ing January and February 1989. Individual reports will be      review aimed at identifying the major characteristics
submitted to each agency during the first quarter of           of the investigative work currently being performed by
Fiscal Year 1990, followed by a consolidated report.           the OIGs. Questionnaires were distributed to the OIGs,
                                                               focusing on investigative cases closed during
                                                               February 1988.
2. Computer Systems Integrity Project                          The questionnaires were returned and are being ana-
                                                               lyzed. A consolidated report is scheduled for issuance in
The GSA OIG is one of 11 agencies participating in this        May 1989.
evaluation of the automated systems application controls
and data reliability of agencies' contract tracking
systems. The objective of the review is to assess the          6. Other PCIE Activities
integrity of data reported to the Federal Procurement
Data System.                                                   The GSA OIG was responsible for the publication of a
This effort will culminate in individual agency reports,       special edition of "Frontline," the PCIE bimonthly news-
scheduled for issuance in May 1989, followed by a con-         letter, that commemorated the tenth anniversary of the
solidated report, due by June 30, 1989.                        passage of the Inspector General Act of 1978. This
                                                               24 page edition, issued in October 1988, featured profiles
                                                               of the statutory Inspectors General, messages from
                                                               Congressional leaders, interviews with OIG staff
3. Governmentwide Review of                                    members, and a look at the demographics of the peIE
                                                               community.
   Accounting Systems
                                                               The GSA Inspector General, as chairman of the PCIE
The GSA OIG is participating in this PCIE project aimed        Training Subcommittee, coordinated the training needs
at assessing whether funds for improved Government-            of professional and support personnel within the PCIE.
wide accounting systems are well spent, and whether ad-        This period, significant activities of the Subcommittee
equate audit trails and internal controls exist. We            included a 2-day briefing on the effects of the Inspector
assisted in the development of two questionnaires, relat-      General Act Amendments of 1988 on the budget process,
ing to both management's efforts to establish a single         and a 3-day training course for Hotline operators.


                                                                                                                      29
APPENDICES
APPENDIX I-AUDIT REPORT REGISTER

Assignment                                                                                             Date of
Nnmber       Title                                                                                     Report



PBS          Contract Audits
A80795       Preaward Audit of Architect and Engineering Services Contract: Leo A. Daly Company,       10/04/88
             Contract No. GSllP88EGDOl71
A80992       Preaward Audit of Architect and Engineering Services Contract: Gage-Babcock &             10/04/88
             Associates, Inc., Contract No. GSllP88EGCOl04
A80626       Preaward Audit of Lease Alteration Proposal: Eleven-Eighteen Limited Partnership, Lease   10/06/88
             No. GS-llB-8020l
A80708       Preaward Audit of a Claim for Increased Costs: Quality Insulation Co., Second Tier        10/14/88
             Subcontractor to Terminal Construction Corporation, Contract No. GS-02P-23256
A80929       Preaward Audit of Architect and Engineering Services Contract: Welton Becket              10/14/88
             Associates, Contract No. GSllP87MKD9030
A80908       Preaward Audit of Tax Escalation Proposal: Balcor Property Management, Inc., Lease No.    10/19/88
             GS-04B-15730
A80982       Preaward Audit of Architect/Engineering Proposal: Vitetta Group, Solicitation No. GS-     10/19/88
             02P-88CUC01l4(NEG)
A80819       Preaward Audit of Lease Escalation Proposal: Monroe School Associates, Lease No. GS-      10/21/88
             09B-80775
A81003       Preaward Audit of Architect and Engineering Services Contract: Henningson, Durham &       10/21/88
             Richardson, Inc., Contract No. GSllP88EGD0l62
A90023       Preaward Audit of Architect and Engineering Services Contract: Ellis/Naeyaert/            10/24/88
             Genheimer Associates, Inc., Solicitation No. GS05P87GBCOl07
A80783       Preaward Audit of Change Order Proposal: MCI Constructors, Inc., Contract No. GS-llB-     10/25/88
             19067
A80869       Preaward Audit of Architect and Engineering Services Contract: E-B-L Engineers, Inc.,     10/25/88
             Subcontractor to Gaudreau, Inc., Project No. ZOE-70070
A80928       Preaward Audit of Guard Services Contract: AM Pro Protective Agency, Inc., Solicitation   10/26/88
             No. GS-04P-88-EWC-01l3
A80974       Preaward Audit of Lease Escalation Proposal: H.K. Enterprises, Inc., Lease No. GS-04B-    10/26/88
             15282
A80740       Preaward Audit of Architect and Engineering Services Contract: Ueland and Junker,         11101/88
             Architects and Planners, Project No. ZPA-70047
A80936       Preaward Audit of Architect and Engineering Services Contract: American Institute of      11/03/88
             Architects, Contract No. GSOOP88BQD0077
A90058       Preaward Audit of Architect and Engineering Services Contract: AME Associates,            11/03/88
             Solicitation No. GS-05-P88-GBD-0062
A90059       Preaward Audit of Cost Estimating Services Contract: AME Associates, Solicitation No.     11103/88
             GS-05-P88-GBD-0147
A90026       Preaward Audit of Lease Escalation Proposal: Balcor Property Management, Inc., Lease      11/04/88
             No. GS-04B-15730
A80632       Preaward Audit of Lease Escalation Proposal: Turtle Limited, Lease No. GS-09B-70053       11110/88
A80872       Preaward Audit of Architect and Engineering Services Contract: Lewis S. Goodfriend &      11117/88
             Associates, Subcontractor to Gaudreau, Inc., Project No. ZOE-70070

32
A80975   Audit of Base Tax Year Determination: 2300 Lake Park Building, Smyrna, Georgia, Lease         11117/88
         No. GS-04B-26153
A90044   Preaward Audit of Lease Escalation Proposal: Monroe School Associates, Lease No. GS-          11121188
         09B-80775
A80871   Preaward Audit of Architect and Engineering Services Contract: Midlantic Design               11122/88
         Associates, Subcontractor to Gaudreau, Inc., Project No. ZDE-70070
A80968   Preaward Audit of Demolition Services Contract: V. Ottilio and Sons, Inc., Solicitation No.   11122188
         GS-02P-88-CUC-0133N
A80705   Preaward Audit of Change Order Proposal: Benjamin Electrical Engineering Works, Inc.,         11125/88
         Subcontractor to Terminal Construction Corp., Contract No. GS-02P-23256
A80773   Preaward Audit of a Claim for Increased Costs: Prassel Construction Company, Contract         11125/88
         No. GS-07P-86-HUC-0054
A80894   Preaward Audit of a Claim for Increased Costs: Terminal Construction Corporation,             11129/88
         Contract No. GS-02P-23256
A80867   Preaward Audit of Architect and Engineering Services Contract: Gaudreau, Inc., Project        12/01188
         No. ZDE-70070
A80930   Preaward Audit of Lease Escalation Proposal: Federal Plaza Associates, Lease No. GS-05B-      12/01/88
         13381 for Lease Year Ending March 7, 1986
A90034   Preaward Audit of Lease Escalation Proposal: Federal Plaza Associates, Lease No. GS-05B-      12/01188
         13381 for Lease Year Ending March 7, 1987
A90035   Preaward Audit of Lease Escalation Proposal: Federal Plaza Associates, Lease No. GS-05B-      12/01188
         13381 for Lease Year Ending March 7, 1988
A80873   Preaward Audit of Architect and Engineering Services Contract: Torrence, Dreelin,             12/02/88
         Farthing & Buford, Inc., Subcontractor to Gaudreau, Inc., Project No. ZDE-70070
A90028   Preaward Audit of Lease Escalation Proposal: Cleveland Rockford Company, Lease No.            12/06/88
         GS-05B-12439
A90145   Preaward Audit of Architect and Engineering Services Contract: Weston - ATC, Inc.,            12/08/88
         Contract No. GSll088EGD0206
A90093   Preaward Audit of Architect and Engineering Services Contract: Roger Johnson-Richard          12/12/88
         Smith Architects, Inc., Solicitation No. GSOSP-88-GBC-0l30
A90142   Preaward Audit of Lease Escalation Proposal: Paramount Group, Inc., Lease No. GS-09B-         12/12/88
         76541
A80900   Preaward Audit of Small Business Administration 8lal Pricing Proposal: A.M.E., Inc.,          12113188
         Solicitation No. GS-07P-88-HTC-0l61
A80901   Preaward Audit of Pricing Proposal for Alterations in Leased Space: The Traveler's            12/13/88
         Insurance Company, Lease No. GS-07B-13188
A81018   Preaward Audit of Lease Alteration Proposal: Real Property Systems, Lease No. GS-08P-         12114188
         12862
A81000   Preaward Audit of Change Order Proposal: Donaldson Acoustics Co., Inc., Subcontractor         12/16/88
         to Terminal Construction Corporation, Contract No. GS-02P-23256
A90094   Preaward Audit of Architect and Engineering Services Contract: Michaud, Cooley,               12/19/88
         Erickson and Associates, Inc., Consultant to Roger Johnson-Richard Smith Architects,
         Inc., Solicitation No. GSOSP-88-GBC-0l30
A80860   Preaward Audit of Architect and Engineering Services Contract: Shepley, Bulfinch,             12/23188
         Richardson and Abbott, Inc., Contract No. GSllP88EGC0165
A90042   Audit of a Claim for Increased Costs: v.A.L. Floors, Inc., Subcontractor to Terminal          12123/88
         Construction Corporation, Contract No. GS-02P-23256
A90097   Preaward Audit of Architect and Engineering Services Contract: Phillips Swager                12123/88
         Associates, Solicitation No. GS05P88GBC-0l07
A90098   Preaward Audit of Architect and Engineering Services Contract: Architectural Spectrum,        12123/88
         Solicitation No. GSOSP88GBC-0l07

                                                                                                             33
A90101   Preaward Audit of Architect and Engineering Services Contract: Forell/Elsesser              12/28/88
         Engineers, Inc., Project No. ZCA 00300
A80912   Preaward Audit of Lease Alteration Proposal: Eleven-Eighteen Limited Partnership, Lease     12/29/88
         No. GS-llB-8020l
A80866   Audit of a Claim for Increased Costs: The George Hyman Construction Co., Contract No.       01/05/89
         GS-llB-19068
A90075   Preaward Audit of Pricing Proposal: Kumin Associates, Inc., Project No. IAK1l280            01105/89
A900n    Preaward Audit of Pricing Proposal: Raj Bhargava Associates, Project No. IAK1l280           01105/89
A90102   Preaward Audit of a Claim for Increased Costs: Donaldson Acoustics Co., Inc.,               01106/89
         Subcontractor to Terminal Construction Corporation, Contract No. GS-02P-23256
A90108   Preaward Audit of Cost or Pricing Data: Professional Services Unlimited, Solicitation No.   01109/89
         GS-09P-8S-KSC-0278
A90022   Preaward Audit of a Claim for Increased Cost: G. E Cook Development Corporation, Lease      01/10/89
         No. GS-08P-12734
A90076   Preaward Audit of Pricing Proposal: Pinchin-Harris and Associates, Inc., Project No.        01/10/89
         IAK1l280
A80911   Preaward Audit of Lease Alteration Proposal: Eleven-Eighteen Limited Partnership, Lease     01/13/89
         No. GS-UB-8020l
A80980   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: M.A.C. Super         01117/89
         Vac, Solicitation No. GS-07P-88-HTC-0l59/7PPB
A90055   Preaward Audit of Architect and Engineering Services Contract: George M. Smart              01/17/89
         Architects, Inc., Contract No. GS-04P-86-EXC-0001
A90246   Preaward Audit of Lease Escalation Proposal: LK Properties, Contract No. GS-08-B-I0989      01117/89
A90074   Preaward Audit of Architect and Engineering Services Contract: Zeiler-Pennock, Inc.,        01118/89
         Contract No. GS-07-P-88-HUD-0219
A90074   Preaward Audit of Architect and Engineering Services Contract: McFall-Konkel &              01118/89
         Kimball Consulting Engineers, Inc., Contract No. GS-07-P-88-HUD-0219
A90074   Preaward Audit of Architect and Engineering Services Contract: Oliver and Hellgren          01118/89
         Architects P.c., Contract No. GS-07-P-88-HUD-0219
A90074   Preaward Audit of Architect and Engineering Services Contract: Sol Flax & Associates,       01l1S/89
         Inc., Contract No. GS-07-P-88-HUD-0219
A90074   Preaward Audit of Architect and Engineering Services Contract: Frasier Engineering          01118/89
         Company, Contract No. GS-07-P-88-HUD-0219
A90202   Preaward Audit of Architect and Engineering Services Contract: Architectural Resources,     01/18/89
         Inc., Solicitation No. GS05P88GBC01l2
A90068   Preaward Audit of Architect and Engineering Services Contract: Rolf Jensen and              01119/89
         Associates, Inc., Contract No. GS-07-P-88-HU-C-0239
A90068   Preaward Audit of Architect and Engineering Services Contract: Michael Barber               01119/89
         Architecture, Contract No. GS-07-P-88-HU-C-0239
A90068   Preaward Audit of Architect and Engineering Services Contract: Wiss, Janney, Elstner        01119/89
         Associates, Inc., Contract No. GS-07-P-88-HU-C-0239
A80S33   Preaward Audit of Change Order Proposal: Alvarado Construction, Incorporated, Con-          01123/89
         tract No. GS-07P-86-HUC-0156, Change Request No.7
A80S33   Preaward Audit of Change Order Proposal: Alvarado Construction, Incorporated, Con-          01123/89
         tract No. GS-07P-86-HUC-0156, Change Request No.8
A80S33   Preaward Audit of Change Order Proposal: Alvarado Construction, Incorporated, Con-          01123/89
         tract No. GS-07P-86-HUC-0156, Change Request No.9
A80S33   Preaward Audit Of Change Order Proposal: Alvarado Construction, Incorporated, Con-          01/23/89
         tract No. GS-07P-86-HUC-0156, Change Request No. 15


34
ASOS33   Preaward Audit of Change Order Proposal: Alvarado Construction, Incorporated, Con-       01/23/89
         tract No. GS-07P-S6-HUC-0156, Change Request No. 18
A90l92   Preaward Audit of Cost or Pricing Data: Parkway Services, Inc., Solicitation No. GS-     01123/89
         04P-88-EWC-0l4S
AS0913   Preaward Audit of Lease Alteration Proposal: Eleven-Eighteen Limited Partnership,        01/24/S9
         Lease No. GS-llB-S020l
AS092S   Preaward Audit of a Claim for Increased Costs: Central Mechanical, Inc., Contract No.    01/31/89
         GS-08B-83089
AS092S   Preaward Audit of a Claim for Increased Costs: Baeten Construction Compan)j Con-         01/31/89
         tract No. GS-OSB-S3089
AS0971   Audit of Purchase Option Costs: Development Corporation of America, Lease No. GS-        01/31/89
         03B-80030
A900S1   Audit of a Claim for Increased Costs: J.S. Alberici Construction Compan)j Inc., Con-     02/01/89
         tract No. GS06P87GYC0061
A9009S   Preaward Audit of Architect and Engineering Services Contract: SOH & Associates,         02/01/89
         Project No. ZCA 00300
A90136   Preaward Audit of Architect and Engineering Services Contract: Tetra Design, Inc.,       02/01/89
         Project No. ZCA 86770
A90041   Preaward Audit of a Claim for Increased Costs: Westinghouse Elevator Co., Subcon-        02/02/89
         tractor to Carlin-Atlas, Contract No. GS-02B-1683S
A90164   Audit of a Claim for Increased Costs: Miller Elevator Compan)j Inc., Contract No.        02/03/89
         GS06PS6GXC0066
A90046   Preaward Audit of Architect and Engineering Services Contract: Persons-Howell En-        02/07/89
         gineering, Inc., Solicitation No. GS-07-P-88-HUC-0205
A90046   Preaward Audit of Architect and Engineering Services Contract: Glover-Smith-Bode,        02/07/89
         Inc., Solicitation No. GS-07-P-88-HUC-0205
A90096   Preaward Audit of Pricing Proposal: Ree's Contract Service, Inc., Solicitation No. GS-   02/07/S9
         06P-88-GXC-0205
A90l38   Preaward Audit of Architect and Engineering Services Contract: Guth & Myers, Inc.,       02/08/89
         Consultant to Browne, Worrall & Johnson, Inc., Project No. GS-03P-88-DXD-0086
A81016   Preaward Audit of a Claim for Increased Costs: Alumni Plumbing & Heating Corpo-          02/10/89
         ration, Subcontractor to Terminal Construction Corporation, Contract No. GS-02P-
         23256
A80898   Preaward Audit of Cost or Pricing Data: MRC Roofing and Construction, Inc., Con-         02/17/89
         tract No. GS-llP88MOC0l82(NEG)
AS0914   Preaward Audit of Lease Alteration Proposal: Eleven-Eighteen Limited Partnership,        02117/89
         Lease No. GS-llB-8020l
AS0943   Preaward Audit of Lease Alteration Proposal: Eleven-Eighteen Limited Partnership,        02117/89
         Lease No. GS-llB-8020l
A90277   Preaward Audit of Architect and Engineering Services Contract: Construction Cost         02/23/89
         Systems, Inc., Solicitation No. GS05P88GBD0l88
AS0895   Preaward Audit of a Claim for Increased Costs: Pelham Metal Works, Inc., First Tier      02124/89
         Subcontractor to Terminal Construction Corp., Contract No. GS-02P-232S6
A90007   Preaward Audit of a Claim for Increased Costs: Bunker Metal Fabricators, Inc., Second    02127/89
         Tier Subcontractor to Terminal Construction Corp, Contract No. GS-02P-232S6

A90006   Preaward Audit of a Claim for Increased Costs: Bunker Metal Fabricators, Inc., Second    02128/89
         Tier Subcontractor to Terminal Construction Corp., Contract No. GS-02P-232S6
A90l37   Preaward Audit of Supplemental Architect and Engineering Term Contract: Browne,          02128/89
         Worrall & Johnson, Inc., Solicitation No. GS-03P-88-DXD-0086


                                                                                                        35
A90143   Preaward Audit of Guard Service Contract: Integrity Private Security Services, Inc., So-   03/02/89
         licitation No. GS-04P-88-EWC-0l72
A90276   Preaward Audit of Architect and Engineering Services Contract: Ann Beha Associates,        03/06/89
         Project No. GS-OIP-88-BWC-0415
A90262   Preaward Audit of Architect and Engineering Services Contract: The Pickering Firm,         03/08/89
         Inc., Subcontractor to Carlson Associates, Inc., Contract No. GSOlP89BWCOOI0
A90281   Preaward Audit of Architect and Engineering Services Contract: GiHels Consultants,         03/08/89
         Inc., Solicitation No. GS05P88GBC0l42
A90144   Preaward Audit of Guard Service Contract: Integrity Private Security Services, Inc., So-   03/09/89
         licitation No. GS-04P-88-EWC-0l39
A80359   Preaward Audit of Lease Escalation Proposal: Tishman Speyer Market Street Limited          03/10/89
         Partnership, Lease No. GS-09B-73066
A90079   Preaward Audit of Lease Escalation Proposal: Tishman Speyer Market Street Limited          03/10/89
         Partnership, Lease No. GS-09B-73066
A90227   Preaward Audit of Supplemental Architect and Engineering Thrm Contract: Asta En-           03/10/89
         gineering, Inc., Solicitation No. GS-03P-88-DXD-OllO
A90047   Preaward Audit of Architect and Engineering Services Contract: Klipp Partnership           03/13/89
         P.C., Solicitation No. GS-07-P-88-HU-C-0206
A90047   Preaward Audit of Architect and Engineering Services Contract: Holmes and Narver,          03/13/89
         Inc., Solicitation No. GS-07-P-88-HU-C-0206
A90203   Preaward Audit of Architect and Engineering Services Contract: Gipe Associates, Inc.,      03/14/89
         Contract No. GS-llP88EGC0218
A90l91   Preaward Audit of Supplemental Architeci: and Engineering Term Contract: Construc-         03/16/89
         tion Cost Systems, Inc., Consultant to Browne, Worrall & Johnson, Inc., Solicitation
         No. GS-03P-88-DXD-0086
A90294   Preaward Audit of Architect and Engineering Services Contract: The Grad Partnership,       03/17/89
         Contract No. GS-02P-86CUC00l6(NEG)
A90091   Preaward Audit of Architect and Engineering Services Contract: Research Planning           03/22/89
         Associates, Inc., Solicitation No. RPA-76760
A90219   Preaward Audit of Lease Escalation Proposal: Limrock Associates, Lease No. GS-05B-         03/22/89
         12112
A90189   Preaward Audit of Supplemental Architect and Engineering Term Contract: Jenkins            03/23/89
         Professionals, Inc., Consultant to Browne, Worrall & Johnson, Inc., Solicitation No. GS-
         03P-88-DXD-0086
A90340   Preaward Audit of Architect and Engineering Services Contract: Gauthier, Alvarado          03/23/89
         and Associates, Inc., Contract No. GS11P88EGD0277
A90139   Audit of a Claim for Increased Costs: John Driggs Company, Inc., Subcontractor to Cen-     03/27/89
         tex Construction Co., Inc., Contract No. GS-llB-19066
A90l62   Audit of a Claim for Increased Costs: Beta Construction Company, Subcontractor to          03/27/89
         Centex Construction Company, Inc., Contract No. GS-UB-19066
A60423   Audit of a Claim For Increased Costs: General Federal Construction, Inc., Contract No.     03/27/89
         GS-03-B-78379
A90118   Audit of a Claim for Increased Costs: Centex Construction Co., Inc., Contract No. GS-      03/28/89
         11B-19066
A90334   Preaward Audit of Architect and Engineering Services Contract: Peck, Peck & Asso-          03/28/89
         ciates, Inc., Contract No. GSllP88EGD0221
A90354   Preaward Audit of Architect and Engineering Services Contract: Fisher & Kuegler, P.c.,     03/28/89
         Consultants to Sapack, Ames & Whitaker, Architects, Solicitation No. GS-
         02P88CUC0l36(NEG)
A90351   Preaward Audit of Guard Services Contract: General Services, Incorporated, Solicita-       03/29/89
         tion No. GS-04P-88-3EWC-0177

36
A80997   Preaward Audit of Lease Escalation Proposal: District of Columbia Joint Venture, Lease   03/30/89
         No. GS-03B-05873
A90166   Audit of Cost Reimbursable Contract: Radan Systems, Inc., Contract No. GS-OOP-           03/30/89
         86BQD-0021
A90190   Preaward Audit of Supplemental Architect and Engineering Term Contract: Burdette,        03131189
         Koehler, Murphy & Associates, Inc., Consultant to Browne, Worrall & Johnson, Inc.,
         Solicitation No. GS-03P-88-DXD-0086

PBS      Internal Audits
A80989   Preaward Lease Review: 8068 Reeder Road, Lenexa, Kansas, Lease No. GS-06P-88734          10/04/88
A80993   Preaward Lease Review: Tacoma Financial Center, Tacoma, Washington, Lease No. GS-        10/07/88
         IOB-05457
A80394   Review of Selected New Construction and Major Repair and Alterations Contracts in        10112188
         Region 5
A80612   Review of Region 6 Monitoring of the Polychlorinated Biphenyl Removal and Disposal       10112/88
         Process
A90008   Preaward Lease Review: Bureau of Land Management Facility, North Bend, Oregon,           10112/88
         Lease No. GS-lOB-OS439
A80988   Preaward Lease Review: 1111 Jefferson Davis Highway, Arlington, Virginia, Lease No.      10120188
         GS-llB-80232
A90029   Preaward Lease Review: One Corporate Center, Hartford, CT, Lease No. GS-01B(PEL)-        10126/88
         03616(NEG)
A90069   Preaward Lease Review: 101 Dexter Street, Chesapeake, VA, Lease No. GS-03B-99005         10127/88
A90018   Preaward Lease Review: 95 Horseblock Rd., Yaphank, NY, Lease No. GS-02B-22487            10128188
A90092   Advisory Review of Lease Proposal for the Imperial Building, 1441 L Street, NW, Wash-    10/31188
         ington, DC
A81017   Preaward Review of Proposed Supplemental Lease Agreement No.4, 25 Funston Road,          11101/88
         Kansas City, Kansas, Lease No. GS-06P-68579
A90030   Preaward Lease Review: 510 Congress Street, Portland, Maine, Lease No. GS-               11101188
         O1B(PEL)03615(NEG)
A90045   Preaward Lease Review: 2500 Financial Square, Oxnard, California, Lease No. GS-          11/02188
         09B-88361
A80547   Post Award Lease Review: 7799 Leesburg Pike, Falls Church, Virginia, Lease No. GS-       11103/88
         llB-70136(NEG)
A90078   Preaward Lease Review: 330 N. Brand Blvd., Glendale, California, Lease No. GS-09B-       11/09/88
         88163
A90052   Review of Hotline Complaint on National Capital Region, Public Buildings Service,        11110/88
         Workforce Planning Project
A90013   Preaward Lease Review: Webb Bldg., Ltd. Partnership, 4040 North Fairfax Drive, Ar-       11115/88
         lington, VA, Lease No. GS-llB-I0047
A80577   Review of the Mechanical/Maintenance Contract at the Green/Byrne Federal Buildings       11118/88
         Complex, Philadelphia, PA
A80979   Preaward Lease Review: 420 West Main, Oklahoma City, Oklahoma, Lease No. GS-             11121188
         07B-13259
A90106   Preaward Lease Review: 200 W Adams Street, Chicago, Illinois, Lease No. GS-05B-          11122188
         14404, Supplemental Agreement 3
A90127   Preaward Lease Review: Greencourt Road, Richmond, Virginia, Lease No. GS-03B-            11123/88
         99007
A90089   Preaward Lease Review: Review of Technical Evaluations, New Federal Building, Chi-       11/25/88
         cago, Illinois, Solicitation No. GS-05B-14850

                                                                                                        37
A90125   Preaward Lease Review: 275 Middlefield Road, Menlo Park, California, Lease No. GS-      11125/88
         09B-87871
A80317   Review of Seattle Field Office, Region 9                                                11129/88
A90128   Preaward Lease Review: One and Two Landmark Square, Stamford, CT, Lease No. GS-         11130/88
         01B(PEL)-03590(NEG)
A90113   Preaward Lease Review: Imperial Building, 1441 L St. NW, Washington, DC, Lease No.      12/06/88
         GS-llB-90152
A90140   Preaward Lease Review: 400 Oceangate Boulevard, Long Beach, California, Lease No.       12/06/88
         GS-09B-38137
A90141   Preaward Lease Review: 400 Oceangate Boulevard, Long Beach, California, Lease No.       12/06/88
         GS-09B-38073
A80355   Review of Award and Negotiation of Work Orders Processed Under Supplemental Ar-         12/08/88
         chitect-Engineer Contracts in Region 5
A90133   Preaward Lease Review: One Lefrak City Plaza, Rego Park, NY, Extension of Lease No.     12/08/88
         GS-02B-15366
A90174   Preaward Lease Review: Equitable Bank Center Tower II, 100 South Charles Street, Bal-   12/09/88
         timore, MD, Lease No. GS-03B-99008
A90168   Preaward Lease Review: Lincoln Square Office Center, Miami, FL, Lease No. GS-04B-       12/13/88
         29005
A90090   Preaward Lease Review: USGS/FWS, Cheyenne, Wyoming, Lease No. GS-08P-12892              12/14/88
A90179   Preaward Lease Review: Financial Centre North, Deerfield Beach, Florida, Lease No.      12/14/88
         GS-04B-28276
A90187   Preaward Lease Review: Crossways III, Pine Wood Lane, Chesapeake, VA, Lease No.         12115188
         GS-03B-990l6
A80546   Review of Construction Contract Change Orders Coded UnforeseenlDiffering Site           1;2./16/88
         Conditions, Region 4                               . . ..             .
A80823   Review of Time and Attendance Practices of the Contracts Division, Public Buildings     12121/88
         Service
A90157   Preaward Lease Review: One Skyline Tower Building, 5107 Leesburg Pike, Falls Church,    12121188
         Virginia, Lease No. GS-llB-80434
A90120   Preaward Lease Review: 1100 Vermont Avenue, NW, Washington, DC, Lease No. GS-           12122/88
         llB-80427
A90199   Preaward Lease Review: One Hundred Middle Street Plaza, Portland, ME, Lease No.         12122/88
         GS-OlB(PEL)-03619(NEG)
A90204   Preaward Lease Review: 350 S. Figueroa Street, Los Angeles, California, Lease No. GS-   12122/88
         09B-50039
A90073   Review of the Public Buildings Service, Fiscal Year 1988 Assurance Statement            12127/88
A90181   Preaward Lease Review: Leland House Limited Partnership Company, 400 Bagley Ave.,       12/29/88
         Detroit, Michigan, Lease No. GS-05B-14071
A80634   Review of Orders Placed Against Commercial Facilities Management Contract No.           01106189
         GS05P87GAC0005
A90210   Preaward Lease Review: 1333 Broadway, Oakland, CA, Lease No. GS-09B-8810l               01/06/89
A80969   Review of the Administration of Real Estate Management Services Contract to Manage      01110/89
         the Peachtree Summit Building
A90176   Preaward Lease Review: 615 Erie Blvd. West, Syracuse, New York, Lease No. GS-02B-       01110/89
         22484
A90216   Preaward Lease Review: Executive Park, Atlanta, Georgia, Lease No. GS-04B-29027         01/10/89
A90217   Preaward Lease Review: Koger Office Center, Atlanta, Georgia, Lease No. GS-04B-         01110/89
         29035

38
A80297    Review of the New Jersey Buildings Management Field Office                            01/12/89
A80964    Preaward Lease Review: Federal Aviation Administration Building, Renton, Washing-     01/12/89
          ton, Region 9, Lease No. GS-10B-05434
A90014    Preaward Lease Review: 1919 M Street, NW, Washington, DC, Lease No. GS-llB-80412      01/12/89
A90146    Preaward Lease Review: New Northeast Distribution Center, Burlington, NT, Lease No.   01/13/89
          GS-03B-99023
A90212    Preaward Lease Review: USDA, Denver, Colorado, Lease No. GS-08P-I2897                 01/17/89
A90112    Preaward Supplemental Lease Review: Matomic Building, 1717 H Street, NW, Washing-     01/19/89
          ton, DC, Lease No. GS-llB-10091, Supplemental Agreement No.9
A80836    Postaward Lease Review: Raleigh Oaks Building, Memphis, TN, Lease No. GS-04B-         01/20/89
          28107
A80774    Review of New Roof, U.S. Post Office & Courthouse, San Antonio, Texas                 01/23/89
A90197    Preaward Lease Review: 550 Fannin Street, Petroleum Tower, Beaumont, Texas, Lease     01/25/89
          No. GS-R7-67-88
A90072    Preaward Lease Review: 1709 New York Avenue, NW, Washington, DC, Lease No. GS-        01/26/89
          llB-80415
A90236    Preaward Lease Review: One Pierrepont Plaza, Brooklyn, NY; Lease No. GS-02B-22494     01/30/89
A90275    Preaward Lease Review: One Gateway Center, Newton, MA, Lease No. GS-OlB(PEL)-         01/30/89
          03388(NEG), One Year Extension
A70519    Interim Audit Report on the Review of Overtime Services for the CFM Contract at the   01/31/89
          Judiciary Square Building
A90256    Preaward Lease Review: Rockwall I Building, 11400 Rockville Pike, Rockville, MD,      01/31/89
          Lease No. GS-llB-90166
A90296    Preaward Lease Review: Six St. Paul Centre, 6 St. Paul Street, Baltimore, MD, Lease   01/31/89
          No. GS-03B-99029
A80634    Review of Elevator Maintenance Provided by Commercial Facilities Management Con-      02/06/89
          tract No. GS05P87GAC0005
A80990    Review of Controls over PBS-IS Passwords in Region 5                                  02/07/89
A80513    Review of In-house and Contractor Performance of A-76 Awards, Mechanical Mainte-      02/16/89
          nance Program, Oklahoma City, OK
A80513    Review of In-house and Contractor Performance of A-76 Awards, Mechanical Mainte-      02/16/89
          nance Program, Austin, TX
A80513    Review of In-house and Contractor Performance of A-76 Awards, Mechanical Mainte-      02/16/89
          nance Program, Denver, CO
A80513    Review of In-house and Contractor Performance of A-76 Awards, Mechanical Mainte-      02/16/89
          nance Program, Fort Collins, CO
A8075I    Review of Region 4, Buildings Management Field Office, Miami, Florida                 02/17/89
A90282    Preaward Lease Review: Phoenix Office Park, College Park, GA, Lease No. GS-04B-       02/23/89
          29043
A90343    Preaward Lease Review: U.S. Customs Service, Long Beach, California, Lease No. GS-    02/24/89
          09B-87932
A90043    Review of Billings for Reimbursable Guard Services, Region 5                          02/28/89
A90337    Preaward Lease Review: Federal Aviation Administration Building, Renton, Washing-     02/28/89
          ton, Lease No. GS-lOB-05434
A9034 1   Preaward Lease Review: Dekalb Distribution Center #2, Atlanta, Georgia, Lease No.     02/28/89
          GS-04B-29031
A80515    Review of Public Buildings Service, Value Engineering Program                         03/02/89
A80634    Review of Protection Services Provided Under Commercial Facilities Management         03/02/89
          Contract No. GS05P87GAC0005

                                                                                                      39
A90363   Preaward Lease Review: Norfolk Commerce Center V, 2510 Walmer Avenue, Norfolk,         03/02/89
         VA, Lease No. GS-03B-99034
A80570   Review of Vacant Space Management, Region 9                                            03108189
A90099   Review of Construction Scheduling, Region 7                                            03/08/89
A90228   Postaward Lease Review: The Gelman Building, 2120 L Street, NW, Washington, DC,        03/09/89
         Lease No. GS-llB-60250
A90356   Preaward Lease Review: Union Center Plaza I, 810 First Street, NE, Washington, DC,     03/09/89
         Lease No. GS-11B-90l76
A90367   Preaward Lease Review: One Hundred-Thirty Darlin Street, East Hartford, CT, Lease      03109189
         No. GS-01B(PELJ-03632(NEG)
A80790   Review of Region 6 Administration of Change Orders Under Contract No.                  03/10/89
         GS06P88GYC0009
A80413   Review of Vacant Space in GSA-Controlled Buildings, Region 5                           03116/89
A80513   Review of In-house and Contractor Performance of A-76 Awards                           03/16/89
A90254   Preaward Lease Review: 500 North Capitol Street, NW, Washington, DC, Lease No.         03/16/89
         GS-llB-90164
A90265   Preaward Lease Review: Cedar Hill III, 2216 Gallows Road, Dunn Loring, Virginia,       03116189
         Lease No. GS-11B-90l67
A90371   Preaward Lease Review: Fish and Wildlife, Fort Collins, Colorado, Lease No. GS-08P-    03/16/89
         12905
A80874   Review of Controls Over Proprietary Data Within the Public Buildings Service           03/17/89
A80945   Review of Lease Payments: 101 Marietta, Atlanta, Georgia, Lease No. GS-04B-15730       03/17/89
A90360   Preaward LeaseReview: Kenwood Distribution Center, 11015 Kenwood Road, Building        03/171$9
         No.5, Blue Ash, Ohio, Lease No. GS-05B-14807
A90399   Preaward Lease Extension Review: 3700 East-West Highway, Hyattsville, Maryland,        03/17/89
         Lease No. GS-03B-05552
A80609   Review of Lease No. GS-04B-13365, Daniel Building, Birmingham, Alabama                 03121189
A90l86   Preaward Lease Review: Huntsville Associates, Ltd., Project No. MAL 88031, Hunts-      03121/89
         ville, Alabama, Lease No. GS-04B-29018
A80767   Review of the Removal and Disposal of PCBs and PCB-Contaminated Transformers at        03122/89
         the West Heating Plant
A80769   Review of Controls Over the Transport and Disposal of Polychlorinated Biphenyls Gen-   03122/89
         erated by the National Capitol Region
A90313   Preaward Lease Review: Woodmont Complex, 8120 Woodmont Avenue, Bethesda,               03122189
         Maryland, Lease No. GS-11B-90172
A80303   Review of Major Alterations and Improvements in Leased and Newly Acquired Build-       03123/89
         ings in the National Capital Region
A80874   Review of Controls Over Proprietary Data Within the National Capital Region, Public    03123/89
         Buildings Service
A90255   Preaward Lease Review: 500 North Capitol Street, NW, Washington, DC, Lease No.         03123189
         GS-11B-90163
A90315   Preaward Lease Review: Glen Hill North Office Park, Building A, 800 Roosevelt Road,    03123/89
         Glen Ellyn, Illinois, Lease No. GS-05B-14906
A80631   Review of STRIDE, Public Buildings Service                                             03124/89
A90385   Review of GSA's Operation and Maintenance Program for Asbestos Containing Ma-          03127/89
         terial in the National Capital Region
A90386   Review of Asbestos Action Plans at Selected Buildings in the National Capital Region   03127/89
A80458   Review of Overtime Controls, National Capital Region                                   03129/89
A90115   Review of New Lease Awards in a Specific Geographical Area Within Region 3             03/30/89

40
A90025   Review of the West Alteration Work Group in the National Capital Region                    03/31/89
A90l50   Preaward Lease Review: Gramax Building, 8060 13th Street, Silver Spring, Maryland,         03/31/89
         Lease No. GS-llB-S0426
A90467   Preaward Lease Review: Federal Office Building, Oakland, California, Lease No. GS-         03/31/89
         09B-88936



FSS      Contract Audits
AS0817   Preaward Audit of Cost or Pricing Data: Fixtures Furniture, Solicitation No. FCNO-         1O/05/8S
         SI-2021-N-2-10-88
AS0923   Preaward Audit of Cost or Pricing Data: Diversey Wyandotte Corporation, Solicitation       1O/05/8S
         No. TFTC-88-HT-792A-B
AS0875   Preaward Audit of Multiple Award Schedule Contract: Jeol U.S.A., Inc., Solicitation No.    10/13/8S
         FCGS-Y5-37007-N-7-7-88
AS0903   Preaward Audit of Multiple Award Schedule Contract: Wenger Corporation, Solicita-          lO/13/88
         tion No. 7FXG-J3-S8-7802-B
AS0921   Preaward Audit of Cost or Pricing Data: Artistic Innovators, Inc., Solicitation No. 2FY-   lO/13/88
         EAJ-M-A3459-S
AS0877   Preaward Audit of Cost or Pricing Data: Finishing Enterprises, Inc., Solicitation No.      10/14/8S
         FCGA-A3-QX260-N
AS0910   Preaward Audit of Multiple Award Schedule Contract: Amray, Inc., Solicitation No.          lO/14/88
         FCGS-Y5-37007-N-7-7-88
AS0849   Preaward Audit of Multiple Award Schedule Contract: Carl Zeiss, Inc., Solicitation No.     lO/17/88
         FCGS-Y5-3 7007 -N -7 -7 -S8
AS0949   Preaward Audit of Multiple Award Schedule Contract: International Scientific Instru-       lO/17/88
         ments, Solicitation No. FCGS-Y5-37007-N-7-7-88
AS0856   Preaward Audit of Pricing Proposal: American Tool Companies, Inc., Solicitation No.        lO/24/8S
         FCEN-FB-A8017-N-4-14-88
AS0839   Preaward Audit of Cost or Pricing Data: BigeloW; Division of Fieldcrest Cannon, Inc.,      10/26/88
         Solicitation No. FCNH-S8-F501-N-3-22-88
AS0838   Preaward Audit of Cost or Pricing Data: Karastan, Division of Fieldcrest Cannon, Inc.,     lO/28/88
         Solicitation No. FCNH-S8-F501-N-3-22-88
AS0937   Preaward Audit of Multiple Award Schedule Contract: Everlast Sporting Goods Mfg.           lO/31/88
         Co., Inc., Solicitation No. 7FXG-J3-88-7802-B
A90027   Preaward Audit of Multiple Award Schedule Contract: Beckley-Cardy Company, Solic-          lO/31/88
         itation No. 7FXG-J3-88-7S02-B
AS0505   Preaward Audit of Multiple Award Schedule Contract: Hoover Systems, Inc., Solicita-        11/01/88
         tion No. FCNO-C4-2036-N-IO-28-87
AS0808   Preaward Audit of Multiple Award Schedule Contract: Pleion Corporation, Solicitation       11/01/88
         No. FCNO-87-B701-B-I-26-88
AS0956   Preaward Audit of Multiple Award Schedule Contract: Beckman Instruments, Inc.,             11/01/88
         Spinco Division, Solicitation No. FCGS-Y5-37007-N-7-7-8S
AS0853   Preaward Technical Evaluation of Cost and Pricing Data: John Savoy & Son, Inc., Solic-     11102/SS
         itation No. FCNH-Al-2042-N-5-14-87
AS0924   Preaward Audit of Multiple Award Schedule Contract: Jayfro Corporation, Solicitation       11/03188
         No.7FXG-J3-88-7S02-B
AS0931   Preaward Audit of Multiple Award Schedule Contract: Nissei Sangyo America, Ltd.,           11/03/88
         Hitachi Scientific Instruments Division, Solicitation No. FCGS-37009-N-5-24-88
AS0852   Preaward Technical Evaluation of Cost and Pricing Data: John Savoy & Son, Inc., Solic-     11104/88
         itation No. FCNO-SI-2021-N-2-10-88

                                                                                                          41
A80957   Preaward Audit of Multiple Award Schedule Contract: Mogul Division of the Dexter         11/07/88
         Corporation, Solicitation No. TFTC-88-MB-685B
A90064   Preaward Audit of Multiple Award Schedule Contract: Marcy Fitness Products, Solic-       11/09/88
         itation No. 7FXG-J3-88-7802-B
A80731   Preaward Audit of Cost or Pricing Data: John Savoy & Son, Inc., Solicitation No.         11/10/88
         FCNO-Sl-2021-N-2-10-88
A80976   Preaward Audit of Multiple Award Schedule Contract: Milcare, Inc., a Herman Miller       11114/88
         Compan)) Solicitation No. FCGS-X8-3801O-N
A90107   Postaward Audit of Multiple Award Schedule Contract: Milcare, Inc., a Herman Miller      11114/88
         Compan)) Contract No. GS-00F-86266 for the Period 2/1/86 to 1/31/89
A80938   Preaward Audit of Multiple Award Schedule Contract: Cambridge Instruments, Inc.,         11115/88
         Solicitation No. FCGS-YS-37007-N-7-7-88
A90121   Preaward Audit of Multiple Award Schedule Contract: Landa Incorporated, Solicitation     11117/88
         NO.7PM-52813IV5/7FC
A80950   Preaward Audit of Multiple Award Schedule Contract: Triarco Arts & Crafts, Inc., So-     11/18/88
         licitation No. 7FXG-J3-88-7802-B
A80961   Preaward Audit of Cost or Pricing Data: Protective Group, Inc., Solicitation No. 7FXG-   11121/88
         M3-88-8411-B
A90l29   Preaward Audit of Cost or Pricing Data: Fargo International, Inc., Solicitation No.      11121188
         7FXG-M3-88-841l-B
A80730   Preaward Audit of Cost or Pricing Data: John Savoy & Son, Inc., Solicitation No.         11/22/88
         FCNH-Al-2042-N-5-14-87
A80939   Preaward Audit of Multiple Award Schedule Contract: Brunswick Bowling and Bil-           11122/88
         liards Corporation, Solicitation No. 7FXG-J3-88-7802-B
A80935   Preaward Audit of Multiple Award Schedule Contract: Wilson Sporting Goods Com-           11123/88
         pany, Solicitation No. 7FXG-J3-88-7802-B
A80891   Preaward Audit of Multiple Award Schedule Contract: Nautilus Sports/Medical Indus-       11125/88
         tries, Inc., Solicitation No. 7FXG-J3-88-7802-B
A80994   Preaward Audit of Multiple Award Schedule Contract: Charles Beseler Compan)) Solic-      11/29/88
         itation No. FCGE-88-B203-B-8-16-88
A81009   Preaward Audit of Multiple Award Schedule Contract: American Shuffleboard Co., Inc.,     11130/88
         Solicitation No. 7FXG-J3-88-7802-B
A81014   Preaward Audit of Multiple Award Schedule Contract: Safe-Play Manufacturing Co.,         11130/88
         dba Tuf-Wear Manufacturing Co., Solicitation No. 7FXG-J3-88-7802-B
A90054   Preaward Audit of Multiple Award Schedule Contract: Kohler Compan)) Generator Di-        11/30/88
         vision, Solicitation No. 7PM-53017/M6/7FX
A90086   Review of Commerciality: American Seating Compan)) Solicitation No. FCNO-87-             12/01/88
         B701-B-1-26-88
A90012   Preaward Audit of Multiple Award Schedule Contract: Nutmeg Technologies, Inc., So-       12/05/88
         licitation No. TFTC-88-MB-685B
A90020   Preaward Audit of Multiple Award Schedule Contract: Lakeshore Curriculum Mate-           12/06/88
         rials Compan)) Solicitation No. 7FXG-J3-88-7802-B
A80944   Preaward Audit of Multiple Award Schedule Contract: Dudley Sports Compan)) Solic-        12/08/88
         itation No. 7FXG-J3-88-7802-B
A80954   Preaward Audit of Multiple Award Schedule Contract: Sutron Corporation, Solicitation     12112/88
         No. FCGS-X3-380009-N-6-28-88
A90011   Preaward Audit of Multiple Award Schedule Contract: Eiki International, Incorporated,    12/12/88
         Solicitation No. FCGE-88-B203-B-8-16-88
A90135   Preaward Audit of Multiple Award Schedule Contract: Brennan Equipment & Manu-            12112188
         facturing, Inc., Solicitation No. 7FXI-R6-88-3904-B


42
A80922   Preaward Audit of Multiple Award Schedule Contract: House of Ceramics, Inc., Solic-      12/13/88
         itation No. 7FXG-J3-88-7802-B
A90063   Preaward Audit of Curtiss-Wright/Marquette, Inc., Solicitation No. FCEN-SY-A80l9-        12/13/88
         N-5-18-88
A81001   Preaward Audit of Multiple Award Schedule Contract: Kreonite, Inc., Solicitation No.     12/14/88
         FCGE-88-B203-B-8-16-88
A90031   Preaward Audit of Multiple Award Schedule Contract: Betz Entec, Inc., Solicitation No.   12/14/88
         TFTC-88-MB-685B
A80986   Preaward Audit of Multiple Award Schedule Contract: Canon U.S.A., Inc., Solicitation     12/16/88
         No. FCGE-88-B203-B-8-16-88
A90062   Preaward Audit of Multiple Award Schedule Contract: Constructive Playthings, Solic-      12120/88
         itation No. 7FXG-J3-88-7802-B
A90010   Preaward Audit of Multiple Award Schedule Contract: Life Fitness, Inc., Solicitation     12122/88
         No.7FXG-J3-88-7802-B
A80933   Preaward Audit of Cost or Pricing Data: Handar, Incorporated, Solicitation No. FCGS-     12123/88
         X3-38009-N -6-28-88
A80953   Preaward Audit of Multiple Award Schedule Contract: Wild Leitz, USA, Inc., Solicita-     12127/88
         tion No. FCGS-Y5-37007-N
A90084   Preaward Audit of Multiple Award Schedule Contract: Applied Learning International,      12/28/88
         Inc., Solicitation No. 2FY-EAU-M-A5055-S
A90065   Preaward Audit of Multiple Award Schedule Contract: Pace Incorporated, Solicitation      12129/88
         No.2FY-EAU-M-A5055-S
A80824   Preaward Audit of Multiple Award Schedule Contract: Universal Gym Equipment, Inc.,       12/30/88
         Solicitation No. 7FXG-J3-88-7802-B
A90053   Preaward Audit of Multiple Award Schedule Contract: Child craft Education Corp., So-     12/30/88
         licitation No. 7FXG-J3-88-7802-B
A90l16   Preaward Audit of Multiple Award Schedule Contract: Telex Communications, Inc., So-      12/30/88
         licitation No. FCGE-88-B203-B
A90l85   Postaward Audit of Multiple Award Schedule Contract: Nautilus Sports/Medical In-         12/30/88
         dustries, Inc., Contract No. GS-lOF-47437
A80893   Postaward Audit of Multiple Award Schedule Contract: Empire Generator Corporation,       01/05/89
         Contract No. GS-04F-0l203 for the Period 11/1/84 to 10/31/87
A90200   Postaward Audit of Multiple Award Schedule Contract: Applied Learning International,     01105189
         Inc., Contract No. GS-OOF-85633 for the Period 10/1/87 to 9/30/88
A80967   Preaward Audit of Multiple Award Schedule Contract: Calgon Vestal Laboratories, So-      01110/89
         licitation No. TFTC-88-MB-685B
A90051   Preaward Audit of Multiple Award Schedule Contract: Intermetro Industries Corpora-       01/10/89
         tion, Solicitation No. 7FXI-R6-88-3904-B
A90085   Preaward Audit of Multiple Award Schedule Contract: Eastman Kodak Company, So-           01113/89
         licitation No. FCGE-88-B203-B-8-16-88
A80983   Preaward Audit of Cost or Pricing Data: Premier Chemicals, Inc., Solicitation No.        01/18/89
         10PN-SPS-6152/88-17
A90009   Preaward Audit of Multiple Award Schedule Contract: Olesen, Solicitation No. 7FXG-       01124/89
         J3-88-7802-B
A90l00   Preaward Audit of Multiple Award Schedule Contract: Kaplan School Supply, Solicita-      01124/89
         tion No. 7FXG-J3-88-7802-B
A90067   Preaward Audit of Multiple Award Schedule Contract: Advance Lifts, Inc., Solicitation    01/26/89
         No.7FXI-R6-88-3904-B
A90l58   Preaward Audit of Multiple Award Schedule Contract: Eveready Battery Company, Inc.,      01127/89
         Solicitation No. 7FXI-M6-88-6107-B


                                                                                                        43
A80978   Preaward Audit of Multiple Award Schedule Contract: National Micrographic Systems,       01/31/89
         Inc., Solicitation No. FCGE-B3-75445-N-4-26-88
A90004   Preaward Audit of Multiple Award Schedule Contract: Techno Products, Incorporated,       01/31/89
         Solicitation No. 7FXI-R6-88-3904-B
A90169   Preaward Audit of Multiple Award Schedule Contract: Hanna Car Wash International,        02/03/89
         Solicitation No. 7FXI-E6-88-4905-B
A90l23   Preaward Audit of Cost or Pricing Data: Tab products Company, Solicitation No.           02/07/89
         FCNO-8 7-B 701-B-1-26-88
A90032   Preaward Audit of Multiple Award Schedule Contract: E. I. DuPont De Nemours &            02/14/89
         Company, Inc., Biotechnology Systems Division, Solicitation No. FCGS-Y5-37007-N··
         7-7-88
A90339   Postaward Audit of Multiple Award Schedule Contract: Devilbiss Company, Contract         02114/89
         No. GS 0713769 for the Period 4/1/86 to 3/31/89
A90342   Review of Proposal for Initial Pricing: Flohr & Sohne Cadolto-Werk, Solicitation No.     02114/89
         FCGA-F2-IF300-N-6 .. 28-88
A90l48   Preaward Audit of Multiple Award Schedule Contract: Devilbiss Company, Solicitation      02116/89
         No. 7FXI-E6-88-4905-B
A90131   Preaward Audit of Cost or Pricing Data: M.S. Ginn Company, Solicitation No. FCNO-        02/23/89
         S 1-2021-N-2-10-88
A80376   Postaward Audit of Multiple Award Schedule Contracts: Fixtures Furniture, Contract       02/28/89
         Nos. GS-00F-68571 and GS-00F-68572
A90302   Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture Sys-         03/03/89
         tems, Contract No. GS-00F-76574 for the Period 7/1/85 to 9/30/88
A90235   Preaward Audit of Cost or Pricing Data: American Seating Company, Solicitation No.       03/06/89
         FCNO-8 7-B701-B-1-26-88
A90264   Preaward Audit of Cost and Pricing Data: Jasper Desk Company, Solicitation No.           03/07/89
         FCNO-J2-202 7-N -9-29-87
A90l51   Preaward Audit of Multiple Award Schedule Contract: Graco, Inc., Solicitation No.        03/08/89
         7FXI-E6-88-4905-B
A90330   Preaward Audit of Multiple Award Schedule Contract: Award Crafters, Inc., Solicita-      03/09/89
         tion No. 7FXG-K4-88-9911-B                                .
A80548   Postaward Audit of Multiple Award Schedule Contract: Solarex Corporation, Contract       03/10/89
         No. GS-04F-0l274
A90005   Preaward Audit of Multiple Award Schedule Contract: Axia, Inc., Nestaway Division,       03/10/89
         Solicitation No. 7FXI -R6-88-3904-B
A90201   Preaward Audit of Multiple Award Schedule Contract: The Hotsy Corporation, Solici-       03/10/89
         tation No. 7FXI-E6-88--4905-B
A90303   Preaward Audit of Multiple Award Schedule Contract: Classic Medallics, Inc., Solici-     03/14/89
         tation No. 7FXG-K4-88-9911-B
A90435   Review of Application of Agreed-Upon Procedures, RFP No. FCGA-F2-U'300-N-6-28-           03/14/89
         88, Rubb Buildings Ltd., Gateshead, England
A90184   Preaward Audit of Multiple Award Schedule Contract: Clemco Industries, Solicitation      03/16/89
         No.7FXI-E6-88-4905-B
A80503   Postaward Audit of Multiple Award Schedule Contract: aCE Business Systems, Inc.,         03/21/89
         Contract No. GS-00F-77068 for the Period 10/1/85 to 9/30/87
A70111   Postaward Audit of Multiple Award Schedule Contract: Herman Miller, Inc., Contract       03/22/89
         No. GS-00F-76586 for the Period 7/3/85 to 9/30/88
A70112   Postaward Audit of Multiple Award Schedule Contract: Herman Miller, Inc., Contract       03/22/89
         No. GS-00S-38277 for the Period 5/13/82 to 6/30/85
A90l30   Preaward Audit of Multiple Award Schedule Contract: Caravelle Industries, Inc., Solic-   03/22/89
         itation No. 7FXI-E6-88-4905-B

44
A90298   Preaward Audit of Multiple Award Schedule Contract: Wilson Trophy Compan)) Solic-       03/22/89
         itation No. 7FXG-K4-88-9911-B
A90444   Preaward Audit of Cost or Pricing Data: Sargent and Greenleaf, Inc., Solicitation No.   03/22/89
         7FXI-B5-88-5317-N
A90307   Preaward Audit of Multiple Award Schedule Contract: Cincinnati Time, Inc., Solici-      03/23/89
         tation No. FCGE-89-C207-B
A90170   Preaward Audit of Multiple Award Schedule Contract: Equipment Company of Amer-          03/24/89
         ica, Solicitation No. 7FXI-R6-88-3904-B
A90182   Preaward Audit of Cost or Pricing Data: Shenango International Sales Corporation, So-   03/24/89
         licitation No. FCGA-F2-IF300-N-6-28-88
A80865   Preaward Audit of Cost or Pricing Data: Ortho Pharmaceutical Corporation, Solicita-     03/28/89
         tion No. FCGA-A3-QW261-N-7-19-88
A90149   Preaward Audit of Multiple Award Schedule Contract: Sioux Steam Cleaner Corpora-        03/28/89
         tion, Solicitation No. 7FXI-E6-88-4905-B
A70733   Postaward Audit of Multiple Award Schedule Contract: IBM Corporation, Contract No.      03/29/89
         GS-OOF-692 79
A80502   Postaward Audit of Multiple Award Schedule Contract: Wright Line, Inc., Contract No.    03/31/89
         GS-00F-76047 for the Period 6/13/85 to 3/31/88


FSS      Internal Audits
A80726   Review on Office Equipment Division's Administration of Contract No. GS-00F-692 79      10/07/88
         with IBM Corporation
A80530   Review of the Shelf-life Extension Criteria Used at Midwest Distribution Center         10/11/88
A80985   Review of Complaint Concerning Canon U.S.A., Inc., Contract No. GS-00F-85531            10/24/88
A70705   Review of the GSA Laborator)) Region 9                                                  10/25/88
A80446   Review of the Philadelphia Fleet Management Center and Baltimore Fleet Management       10/27/88
         Office, Region 3
A80446   Review of the Regional Fleet Management Branch and Centralized Maintenance Con-         10/27/88
         trol Center, Region 3
A80888   Review of Eligibility for Federal Surplus Propert)) Shepherdsfield School               11/07/88
A80738   Review of Accounting Process for Vehicle Sales in the National Capital Region           11/30/88
A90061   Review of the Federal Supply Service, Fiscal Year 1988 Assurance Statement              12/16/88
A80425   Review of Selected Procurement Activities of the Office of Transportation Audits        12/22/88
A70726   Review of the Multiple Award Schedule for Office Machines                               12/27/88
A80919   Review of Multiple Award Schedule Contract: Insulgard Corporation, Contract No. GS-     12/30/88
         OlF-09926
A80888   Review of Donee Compliance with the Requirements of the Federal Surplus Property        01/06/89
         Donation Program
A80530   Review of Security and Fire Safet)) Midwest Distribution Center, Region 5               01/13/89
A80529   Review of GSA's Acquisition of Thirty-Eight Wildland Fire Trucks for the Bureau of      02/10/89
         Land Management
A80381   Review of the Federal Supply Service Security Program                                   02/22/89
A90259   Review of Duplicate Purchase Orders Issued by Federal Supply Service, Furniture Com-    02/27/89
         modity Center
A70471   Review of the Northeastern Distribution Center, Belle Mead, New Jersey                  02/28/89
A70772   Review of Furniture Commodity Center Quickship Program                                  03/13/89
A81004   Review of Auction Sale No. 5FBS89-1, Region 5                                           03/21/89

                                                                                                       45
A80381   Review of Proprietary Procurement Information in the Federal Supply Service              03/24/89
A80470   Review of the Personal Property Sales Center, Franconia, Virginia                        03/29/89
A80597   Review of Hazardous Waste Disposal at the Southwestern Distribution Center               03/29/89
A70472   Review of Depot Operations at the Southwestern Wholesale Distribution Center             03/30/89

IRMS     Contract Audits
A80848   Preaward Audit of Multiple Award Schedule Contract: Silicon Graphics, Incorporated,      10/04/88
         Solicitation No. GSC-KESO-C-00039-N-4-13-88
A80719   Preaward Audit of Cost or Pricing Data: Computer Data Systems, Inc., Solicitation No.    10/06/88
         GSC-OIT-7007
A80724   Preaward Audit of Cost or Pricing Data: Planning Research Corporation, Solicitation      10/20/88
         No. GSC-OIT-7007
A80725   Preaward Audit of Cost or Pricing Data: Systemhouse Federal Systems, Inc., Solicita-     10/20/88
         tion No. GSC-OIT-7007
A80965   Preaward Audit of Cost or Pricing Data: CPT Corporation, Solicitation No. GSC-           10/27/88
         KESO-C-00039-N-4-13-88
A80763   Preaward Audit of Multiple Award Schedule Contract: Digital Equipment Corporation,       11/08/88
         Solicitation No. GSC-KESO-C-00039-N-4-13-88
A80796   Preaward Audit of Cost or Pricing Data: C3, Incorporated, Solicitation No. GSC-KESO-     11/09/88
         C-00039-N-4-13-88
A80879   Preaward Audit of Multiple Award Schedule Contract: King Radio Corporation, Solic-       11109/88
         itation No. GSC-KESV-00049-N-4-21-88
A80846   Preaward Audit of Cost or Pricing Data: Rugged Digital Systems, Inc., Solicitation No.   11110/88
         GSC-KESO-C-00039-N -4-13-88
A90109   Preaward Audit of Cost or Pricing Data: Contel ASC, Solicitation No. KTN-MS-87-03        11121188
A90110   Audit of Termination Proposal: Martin Marietta Data Systems, Contract No. GS-OOK-        11/21/88
         87-AJC0132
A80962   Preaward Audit of Multiple Award Schedule Contract: Metier Management Systems,           11128/88
         Inc., Solicitation No. GSC-KESO-C-00039-N-4-13-88
A80789   Postaward Audit of Multiple Award Schedule Contract: NCR Corporation, Contract           12/07/88
         No. GSOOK88AGS5936 for the Period 1011/87 to 9/30/88
A80858   Postaward Audit of Multiple Award Schedule Contract: NCR Corporation, Contract           12/07/88
         No. GSOOK87 AGS5852 for the Period 11112/86 to 9/30/87
A80948   Preaward Audit of Multiple Award Schedule Contract: Motorola Computer Systems,           12/14/88
         Inc., Solicitation No. GSC-KESO-C-00039-N-4-13-88
A90119   Preaward Audit of Cost or Pricing Data: Ricoh Corporation, Modification of Contract      12/21/88
         No. GS-00K-88-AGS-0454
A80558   Preaward Audit of Multiple Award Schedule Contract: Unisys Corporation, Solicitation     12/22/88
         No. GSC-KESO-C-00039-N-4-13-88
A80932   Preaward Audit of Cost or Pricing Data: Rolm Mil-Spec Corporation, Solicitation No.      12/22/88
         GSC-KESO-C-00039-N -4-13-88, Model 1666B Processor
A70602   Postaward Audit of Multiple Award Schedule Contract: Emergency Power Engineering,        12/30/88
         Inc., Contract No. GS-OOK-85-AGS-5065 for the Period 4/1/85 to 3/31/86
A80418   Postaward Audit of Multiple Award Schedule Contract: Emergency Power Engineering,        12/30/88
         Inc., Contract No. GS-OOK-85-AGS-5065 for the Period 4/1/86 to 3/31/87
A90036   Preaward Audit of Cost or Pricing Data: Rolm Mil-Spec Corporation, Solicitation No.      01/03/89
         GSC-KESO-C-00039-N-4-13-88, Model 1666D Processor
A90037   Preaward Audit of Cost or Pricing Data: Rolm Mil-Spec Corporation, Solicitation No.      01103/89
         GSC-KESO-C-00039-N-4-13-88, Model 1900 Hawk/32 Processor

46
A90038   Preaward Audit of Cost or Pricing Data: Rolm Mil-Spec Corporation, Solicitation No.       0l/03/89
         GSC-KESO-C-00039-N-4-13-88, Model 5617 Power Supply
A90039   Preaward Audit of Cost or Pricing Data: Rolm Mil-Spec Corporation, Solicitation No.       01/03/89
         GSC-KESO-C-00039-N-4-13-88, Model 3765 Asynchronous Interface
A80716   Preaward Audit of Cost or Pricing Data: Unisys Corporation, Federal Information Sys-      01/11/89
         tems, Solicitation No. GSC-OIT-7007
A70683   Postaward Audit of Multiple Award Schedule Contract: Fujitsu Imaging Systems of           01/20/89
         America, Inc., Contract No. GS-00K-88AGS-0432 for the Period 12/23/85 to 9/30/87
A90286   Preaward Audit of Pricing Proposal: Falcon Systems, Inc., Solicitation No. GSC-KES-B-     01/25/89
         C-00040-N -11-9-88
A90287   Preaward Audit of Pricing Proposal: Falcon Microsystems, Inc., Solicitation No. GSC-      01125/89
         KES-B-C-00040-N-11-9-88
A70453   Postaward Audit of Multiple Award Schedule Contract: Unisys Corporation, Contract         01130/89
         No. GSOOK86AGS5643
A90195   Preaward Audit of Multiple Award Schedule Contract: Tandon Corporation, Solicita-         02/01189
         tion No. GSC-KES-B-C-00040-N -11-9-88
A90153   Preaward Audit of Multiple Award Schedule Contract: Westwood Computer Corpora-            02/06/89
         tion, Solicitation No. GSC-KES-B-C-00040-N-1l-9-88
A80797   Preaward Audit of Cost or Pricing Data: Honeywell Federal Systems, Inc., Solicitation     02/15/89
         No. GSC-KESO-C-00039-N-4-13-88
A90249   Audit of Termination Proposal: Advanced Technology, Inc.                                  02/23/89
A90155   Preaward Audit of Cost or Pricing Data: The Account Data Group, Solicitation No.          02/24/89
         GSC-KES-B-C-00040-N-11-9-88
A90206   Preaward Audit of Multiple Award Schedule Contract: Sytek, Inc., Solicitation No.         02/24/89
         GSC-KES-B-C-00040-N-1l-9-88
A90242   Preaward Audit of Multiple Award Schedule Contract: Seiko Instruments USA, Inc.,          02/24/89
         Solicitation No. GSC-KES-B-C-00040-N-1l-9-88
A90266   Preaward Audit of Multiple Award Schedule Contract: Solicitation No. GSC-KES-B-C-         02/24/89
         00040-N-1l-9-88
A90322   Preaward Audit of Pricing Proposal: Centech, Inc., Solicitation No. GSC-OIT-8067          02/28/89
A90193   Preaward Audit of Multiple Award Schedule Contract: Allen-Bradley Company, Inc., So-      03/01189
         licitation No. GSC-KES-B-C-00040-11-9-88
A90263   Preaward Audit of Multiple Award Schedule Contract: Kybe Corporation, Solicitation        03/03/89
         No. GSC-KES-B-C-00040-N -11-9-88
A90316   Preaward Audit of Pricing Proposal: Jaycor, Subcontractor to Harris Data Services Cor-    03/06/89
         poration, Solicitation No. GSC-OIT-8067
A90323   Preaward Audit of Pricing Proposal: Advanced Technology, Inc., Subcontractor to Harris    03/06/89
         Data Services Corporation, Solicitation No. GSC-OIT-8067
A90324   Preaward Audit of Pricing Proposal: CACI, Inc., Federal Subcontractor to Evaluation Re-   03/06/89
         search Corporation, Solicitation No. GSC-OIT-8067
A90165   Preaward Audit of Multiple Award Schedule Contract: Zenith Data Systems, Solicita-        03/08/89
         tion No. GSC-KES-B-C-00040-N-11-9-88
A90223   Preaward Audit of Multiple Award Schedule Contract: Symplex Communications Cor-           03/08/89
         poration, Solicitation No. GSC-KES-B-C-00040-11-9-88
A90205   Preaward Audit of Multiple Award Schedule Contract: Dest Corporation, Solicitation        03/09/89
         No. GSC-KES-G-00038-N -11-24-87
A90231   Preaward Audit of Cost or Pricing Data: USL Data Systems, Solicitation No. GSC-KES-       03/09/89
         B-C-00040-N -11-9-88
A90251   Preaward Audit of Multiple Award Schedule Contract: Digital Communications As-            03/09/89
         sociates, Inc., Solicitation No. GSC-KES-B-C-00040-11-9-88

                                                                                                         47
A90248   Preaward Audit of Multiple Award Schedule Contract: Broadcast Electronics, Inc., So-      03/13/89
         licitation No. GSC-KESR-00050-N-11-21-88
A90279   Preaward Audit of ADP Schedule Contract: Racal-Milgo Information Systems, Divi-           03/13/89
         sion of Racal Information Systems, Inc., Solicitation No. GSC-KES-B-C-00040-N-11-9-
         88
A90238   Preaward Audit of Multiple Award Schedule Contract: Lee Data Corporation, Solici-         03/16/89
         tation No. GSC-KES-B-C-00040-N-11-9-88
A90288   Preaward Audit of Multiple Award Schedule Contract: Memorex Telex Corporation, So-        03/17/89
         licitation No. GSC-KESV-00052-N-11-29-88
A90308   Preaward Audit of Multiple Award Schedule Contract: Ampex Corporation, Solicita-          03/17/89
         tion No. GSC-KESV-00052-N-1l-29-88
A90l56   Preaward Audit of Cost or Pricing Data: International Technology Corporation, Solic-      03/21/89
         itation No. GSC-KES-B-C-00040-N-11-9-88
A90152   Preaward Audit of Multiple Award Schedule Contract: Graham Magnetics Incorpo-             03/23/89
         rated, Solicitation No. GSCKES-B-C-00040-11-9-88
A90280   Preaward Audit of Cost and Pricing Data: ACD Corporation, Solicitation No. GSC-           03/23/89
         KES-B-C-00040-N -11-9-88
A90321   Preaward Audit of Pricing Proposal: Synergy, Inc., Subcontractor to Science Application   03/23/89
         International Corporation, Solicitation No. GSC-OIT-8067
A90329   Preaward Audit of Cost or Pricing Data: Versitron, Inc., Solicitation No. GSC-KES-B-      03/24/89
         C-00040-N -11-9-9-88
A90328   Preaward Audit of Pricing Proposal: ARINC Research Corporation, Solicitation No.          03/27/89
         GSC-OIT-8067
A90317   Preaward Audit of Pricing Proposal: The Wollongong Group, Subcontractor to ERC In-        03/28/89
         ternational, Solicitation No. GSC-OIT-8067
A90414   Preaward Audit of Multiple Award Schedule Contract: Grid Systems Corporation, So-         03/28/89
         licitation No. GSC-KES-B-C-00040-N-11-9-88
A90218   Preaward Audit of Cost or Pricing Data: Delta Data Systems Corporation, Solicitation      03/29/89
         No. GSC-KES-B-C-00040-N-11-9-88
A90372   Preaward Audit of Multiple Award Schedule Contract: Metraplex Corporation, Solici-        03/29/89
         tation No. GSC-KESR-00051-N-11-20-88
A90285   Preaward Audit of Cost or Pricing Data: Centel Federal Systems, Solicitation No. GSC-     03/30/89
         KES-B-C-00040-N -11-9-88
A90338   Preaward Audit of Cost or Pricing Data: Bohdan Associates, Inc., Solicitation No. GSC-    03/30/89
         KES-B-C-00040-N-11-9-88
A90122   Preaward Audit of Cost or Pricing Data: Electronic Associates, Inc., Solicitation No.     03/31/89
         GSC-KESO-C-00039-N -4-13-88
A90299   Preaward Audit of Cost or Pricing Data: Government Technology Services, Inc., Solic-      03/31/89
         itation No. GSC-KES-B-C-00040-N-U-9-88
A90318   Preaward Audit of Pricing Proposal: SAIC Comsystems, A Division of Science Appli-         03/31/89
         cations, International Corporation, Solicitation No. GSC-OIT-8067
A90325   Preaward Audit of Pricing Proposal: Robbins-Gioia, Incorporated, Subcontractor to Sci-    03/31/89
         ence Applications International Corporation, Solicitation No. GSC-OIT-8067
A90326   Preaward Audit of Pricing Proposal: Stanley Associates, Subcontractor to ARINC Re-        03/31/89
         search Corporation, Solicitation No. GSC-OIT-8067
A90327   Preaward Audit of Pricing Proposal: Harris Corporation, Solicitation No. GSC-OIT-         03/31/89
         8067




48
IRMS     Internal Audits
A90071   Review of the Information Resources Management Service, Fiscal Year 1988 Assurance     12/16/88
         Statement
A80840   Review of Booz, Allen and Hamilton Inc., Engineering Study Contract (GS-OOK-           01/10/89
         8403COOOl)

Other    Contract Audits
A90434   Audit of Subcontractor Report: Hekimian Laboratories, Inc., Contract No. GS-OOK-       03/31/89
         88AGS0457

Other    Internal Audits
A80002   Review of Region 6 Processing of Payments Made by the Credit Card Accounts Payable     10/03/88
         System
A80160   Review of Region 6 Credit and Finance Function                                         10/13/88
A80697   Review of the Imprest Fund, Portland Field Office                                      10/27/88
A80822   Review of Time and Attendance Practices of the Administrative Services Division, Of-   10/28/88
         fice of Administration
A80688   Review of Imprest Fund, Vancouver, Washington Fleet Management Center, Region 10       11/09/88
A80245   Review of Real Property Disposal Operations of the Chicago Real Estate Sales Field     12/01/88
         Office
A80861   Review of Auburn Imprest Fund, GSA Center, Auburn, Washington, Region 9                12/06/88
A90015   Review of Year-End Spending, Fiscal Year 1988                                          12/13/88
A8lO11   Review of Imprest Fund, Dayton Fleet Management Center, Region 5                       12/14/88
A80405   Review of Administration of Excess Profits Clauses in Negotiated Sales, Region 9       12/16/88
A80528   Review of Rent Payments in the National Capital Region                                 12/27/88
A8lO08   Review of the Office of the Comptroller, Fiscal Year 1988, Section 2, Assurance        12/27/88
         Statement
A90l14   Review of the Federal Property Resources Service, Fiscal Year 1988 Assurance           12/27/88
         Statement
A8lO07   Review of GSA's FMFIA Assurance Statement for Fiscal Year 1988                         12/29/88
A8lO08   Review of the Office of Administration, Fiscal Year 1988, Section 2, Assurance         12/30/88
         Statement
A80803   Review of the Imprest Fund, Anchorage Fleet Management Center                          01/10/89
A80804   Review of the Imprest Fund, Fairbanks Fleet Management Center                          01/10/89
A80569   Review of the A-76 Program, A-76 Project 09PFS063, Region 9                            01/19/89
A81007   Review of the Office of the Comptroller, Fiscal Year 1988, Section 4, Assurance        01/23/89
         Statement
A80739   Review of Controls Over the IT Fund, ADP Equipment Lease Program                       01/31/89
A90159   Review of Imprest Fund Operations, Public Buildings Service Field Office, 4300 Good-   02/08/89
         fellow Boulevard, St. Louis, Missouri
A90183   Review of Imprest Fund Operations, Public Buildings Service Field Office, 9700 Page    02/09/89
         Boulevard, Overland, Missouri




                                                                                                      49
A81010   Review of Imprest Fund, Loop Field Office, Region 5                                    03/03/89
A80569   Review of the A-76 Program, A-76 Project 09PFS026, Region 9                            03/07/89
A80569   Review of the A-76 Program, A-76 Project 09PMMOl7, Region 9                            03/07/89
A80748   Review of Time and Attendance Practices, Region 4                                      03/07/89
A90017   Review of Operations of GSA Printing Plant, Kansas City, Missouri                      03/13/89
A90002   Review of Controls Over Advisory and Assistance Service Contracts for Fiscal           03/20/89
         Year 1988
A80368   Review of Imprest Fund, Fleet Management Center, Albuquerque, New Mexico               03/29/89
A80368   Review of Imprest Fund, Fleet Management Center, Los Alamos, New Mexico                03/29/89
A90l72   Review of Imprest Fund Activities, Metro North Field Office, Germantown, Maryland      03/30/89
A90350   Review of Imprest Fund, Thomas P. O'Neill Federal Building, Boston, MA                 03/30/89

Non-     Contract Audits
GSA
A80727   Preaward Audit of Lease Escalation Proposal: Hoffman Entities, Inc., Lease No. GS-     11122/88
         03B-5960

Non ..   Internal Audits
GSA
A90021   Review of the Administrative Procedures of the Architectural and Transportation Bar-   12/14/88
         riers Compliance Board
A80586   Review of Procurement Practices at the Pennsylvania Avenue Development                 12/22/88
         Corporation
A81013   Review of the Administrative Procedures of the Administrative Conference of the        03/29/89
         United States




50
APPENDIX II-DELINQUENT DEBTS

GSA's Office of Comptroller provided the information                   on upgrading collections functions and enhancing debt
presented herein.                                                      management. These activities included the following:
                                                                         •     Revised procedures for personal property sales, and
                                                                               implemented procedures for liquidated damages on
                                                                               personal property sales and for Freedom of Infor-
                                                                               mation Act billings.
GSA Efforts to Improve Debt                                              •     Procedures and processes were implemented
                                                                               whereby excess employee travel advances may be
Collection                                                                     paid by credit card, rather than only by check.
                                                                         •     Established milestones for implementing the Fed-
                                                                               eral Tax Refund Offset Program. Under this pro-
During the period October I, 1988 through March 31,                            gram, a Federal agency can collect debts through
1989, GSA efforts to improve debt collection and reduce                        offsets from the income tax refunds of persons ow-
the amount of debt written off as uncollectible focused                        ing money to the agency.



Non..Federal Accounts Receivable

                                                                     As of                 As of
                                                                 October 1, 1988       March 31, 1989         Difference

     Total Amounts Due GSA ............................ .          $40,843,926             $44,413,081         $3,569,155
     Amount Delinquent ..................................... .     $15,394,070             $18,959,900         $3,565,830

     Total Amount Written Off as Uncollectible
       Between 10/1/88 and 3/31/89 ................. .               $38,761


Of the total amounts due GSA and the amounts                           $9.4 million and $10 million, respectively, are being
delinquent as of October I, 1988 and March 31, 1989,                   disputed.




                                                                                                                               51
NOTES
NOTES
NOTES
